*

>
V-

Appendix A:
Opinion of the Texas Court of Appeals

la-13a

1a
In The

Court ofAppeals
Ninth District of Texas at Beaumont

NO. 09-19-00037-CV

IN THE INTEREST OF C.E.A.Q.

On Appeal from the County Court at Law No. 3
Montgomery County, Texas
Trial Cause No. 09-02-01465-CV

MEMORANDUM OPINION
Pro se appellant M.T.Q. appeals from the trial court’s order modifying the
terms of his child support obligation. M.T.Q. raises seventeen issues for our
consideration. For the reasons explained herein, we affirm the trial court’s order.
In an order establishing the parent-child relationship, the trial court found that
M.T.Q. is C.E.A.Q.’s father and ordered M.T.Q. to pay child support of $385.00 per
month, beginning May 1,2009, as well as retroactive child support in the amount of
$6820.88. In 2014, M.T.Q. filed a petition seeking to modify the terms and
conditions for access to or possession of the child, and on April 4, 2016, the trial
court signed an order granting the petition to modify. On February 16,2018, M.T.Q.
1

2a
filed a document entitled “Due Process Affidavit^]” in which he made numerous
arguments regarding the amount of his child support considering his status as a
recipient of disabled veteran’s benefits, and social security disability benefits.
Attached to M.T.Q. ’s “Due Process Affidavit” was a “Challenge to Constitutionality
of a State Statutef,]” in which M.T.Q. asserted that section 154.062 of the Texas
Family Code is unconstitutional as applied to him. M.T.Q. also filed a
“Memorandum of Law . . . and Supplemental Petition for Challenge to
Constitutionality of a State Statu[t]e” in support of his modification petition.
On March 5, 2018, the Office of the Attorney General (“OAG”) filed a suit
for modification of the child support order. M.T.Q. filed a response, in which he
asserted, among other things, that the Department of Veterans Affairs has exclusive
jurisdiction and that compensation for disability from social security and disabled
veterans’ benefits are protected federal benefits. In response, the OAG argued that
the OAG has been assigned the right to collect child support from “any source
authorized under the Social Security Act and the Texas Family Code.” In addition,
the OAG argued that federal law did not preempt the Texas Family Code and the
State’s police powers over domestic relations law, and that the trial court should
therefore modify M.T.Q.’s child support obligation. M.T.Q. filed a response to the
OAG’s response, and the trial court subsequently signed an order, in which the court
found that M.T.Q. was $1156.93 in arrears and granted OAG a judgment against
2

3a
M.T.Q. for that amount. In its order, the trial court also found that M.T.Q.’s gross
monthly resources are $4691 and modified M.T.Q.’s child support obligation to
$590.21 per month.
M.T.Q. filed a motion for new trial, in which he asserted that the evidence
was legally and factually insufficient to support the trial court’s order, and that the
trial court therefore abused its discretion in calculating child support. The trial judge
signed an order granting M.T.Q.’s motion for new trial, and the trial judge also
signed a temporary order requiring M.T.Q. to pay monthly child support in the
amount of $574.85. At the final hearing, M.T.Q. told the trial judge that he is a
disabled veteran, and he agreed that he draws disability benefits and social security
disability benefits. M.T.Q.’s counsel lodged several objections at the beginning of
the hearing, including (1) asserting that the trial court lacked jurisdiction because
both parties reside in Harris County, (2) objecting to the assignment of Veterans
Affairs (VA) benefits, (3) objecting to child support being taken from M.T.Q.’s VA
benefits “against Article 4, Section 1 of the U.S. Constitution and [M.T.Q.j’s equal
protection under the law[,]” and (4) objecting to the trial court ruling prior to the
expiration of forty-five days pursuant to section 402.010 of the Texas Government
Code. The trial court overruled each objection. Both C.E.A.Q.’s mother and M.T.Q.
testified. During closing arguments, the OAG asserted that the trial court should
order monthly child support in the amount of $434. On January 24, 2019, the trial
3

4a
court signed an order on the modification suit, in which the court confirmed that
M.T.Q. was $5767.68 in arrears and ordered M.T.Q. to pay child support in the
amount of $434 per month.
M.T.Q. filed this appeal, in which he raises seventeen issues for our
consideration. Specifically, M.T.Q.’s issues assert that the trial court (1) failed to
perform its ministerial duty to rule on his petition challenging the constitutionality
of a state statute; (2) did not follow section 402.010(b) of the Government Code,
which directs the trial courts to wait forty-five days after the date the OAG is notified
of a constitutional challenge to a state statute before ruling; (3) failed to insure that
M.T.Q. was afforded substantive and procedural due process rights; (4) denied
M.T.Q. due process by failing to accept his Due Process Affidavit “as truth and fact
when it remained uncontroverted [;]” (5) failed to require appellees to follow 38
C.F.R. 3.458(g); (6) failed to require the OAG to follow the directives of the Federal
Office of Child Support Enforcement; (7) failed to require appellees to submit a VA
apportionment claim; (8) failed to acknowledge that 38 U.S.C. §§ 511 and 5301(a)
“unequivocally indicate the only lawful provisioning of Appellant’s VA award[;]”
(9) erred by impliedly finding that the OAG had “privity of contract as a third party”
with M.T.Q.’s VA apportionment claim; (10) violated title 38 of the U.S. Code, the
Code of Federal Regulations, and “Congressional Acts” by rendering “an
unauthorized, independent apportionment” of M.T.Q.’s VA disability benefits
4

5a
award; (11) erred by including appellant’s social security disability payments in
calculating his child support obligations; (12) erred by not determining that
C.E.A.Q.’s “monthly SSA derivative payment” is the total support amount that can
be lawfully provisioned to C.E.A.Q. from M.T.Q.’s social security disability trust
account; (13) erred by excluding M.T.Q. ’s non-custodial “direct payments affidavits
for credit provisioned by his SSDI trust payments paid directly to the Custodial
Parent[;]” (14) erred by using M.T.Q.’s monthly veterans benefits and social security
disability benefits for court costs, attorney’s fees, and “state fee payments[;]” (15)
erred by requiring M.T.Q. to pay costs and fees despite his indigent status; (16) erred
by not awarding M.T.Q. attorney’s fees and costs incurred in defending the petition
for modification; and (17) erred by not finding that the OAG abused its power by
filing a family violence citation warning without probable cause.
ISSUES ONE, FIVE, SEVEN, EIGHT, NINE, TEN, AND ELEVEN
We interpret M.T.Q.’s arguments in issues one, five, seven, eight, nine, ten,
and eleven as asserting that federal law preempts state law, thereby depriving the
trial court of jurisdiction and rendering section 154.062 of the Family Code, which
expressly includes veterans’ disability as part of a child support obligor’s net
resources, unconstitutional. See Tex. Fam. Code Ann. § 154.062. According to
M.T.Q., the trial court erred by including his veterans’ disability and social security
disability as part of his net resources. We address these issues together.
5

6a
Section 154.062 of the Texas Family Code provides that for purposes of
determining child support liability, net resources include wages, salary, and other
compensation for personal services; interest dividends, and royalties; selfemployment income; net rental income, and “all other income actually being
received, including . . . social security benefits other than supplemental security
income, [and] United States Department of Veterans Affairs disability benefits other
than non-service-connected disability pension benefits^' disability and workers’
compensation benefits; interest income; gifts and prizes; spousal maintenance, and
alimony. Tex. Fam. Code Ann. § 154.062(a), (b)(5) (emphasis added).
State law that conflicts with federal law is without effect. Cipollone v. Liggett
Grp., Inc., 505 U.S. 504, 516 (1992). However, courts must begin with the
assumption that the States’ historic police powers are not superseded by federal law
unless that is the clear and manifest purpose of Congress. Id. Congressional purpose
is the ultimate touchstone of preemption analysis. Id. Congress’s intent to preempt
state law may be either explicitly stated in the statute’s language or implicitly
contained within the structure and purpose of the statute. Id. If there is no express
congressional command, state law is preempted if (1) the state law actually conflicts
with federal law, or (2) federal law so thoroughly occupies a legislative field that
Congress left no room for the States to supplement federal law. Id.

6

7a
M.T.Q. argues that several federal statutes, including (1) the Uniformed
Services Former Spouses Protection Act (USFSPA), (2) the Child Support
Obligations Enforcement Act (“CSEA”), which is the portion of the Social Security
Act that pertains to enforcement of child support obligations (“CSEA”), (3) the
federal statute pertaining to nonassignability and exempt status of benefits, and (4)
the Veterans Administration apportionment statute (VAAS), have preempted the
United States Supreme Court’s holding in Rose v. Rose and rendered section 154.062
of the Family Code unconstitutional.1 Rose involved a disabled veteran whose main
source of income was federal veterans’ benefits from the Veterans’ Administration
and Social Security Administration. Rose v. Rose, 481 U.S. 619, 622 (1987). Upon
the veteran’s divorce, the trial court considered the factors set forth in the applicable
Tennessee statute, which included his earning capacity, obligations, needs, and
financial resources, and the trial court ordered him to pay child support. Id. Rose
asserted that the Tennessee court lacked jurisdiction over his disability benefits and
that the state statute was null and void because it violated the Supremacy Clause. Id.
at 623.
In addressing the issue, the Supreme Court held as follows:
Given the traditional authority of state courts over the issue of child
support, their unparalleled familiarity with local economic factors
affecting divorced parents and children, and their experience in
applying state statutes . . . that do contain detailed support guidelines
l481 U.S. 619(1987).
7

a

1

1

8a
and established procedures for allocating resources following divorce,
we conclude that Congress would surely have been more explicit had it
intended the Administrator’s apportionment power to displace a state
court’s power to enforce an order of child support. Thus, we do not
agree that... the state court’s award of child support from appellant’s
disability benefits does ‘major damage’ to any ‘clear and substantial’
federal interest created by this statute.
Id. at 628. The Court concluded that Congress intended for veterans’ disability
benefits to provide for disabled veterans as well as for their families, and that state
proceedings to enforce a valid child support order are consistent with such intent. Id.
at 630-31, 634. In addition, the Rose court noted that the VA administrator’s
authority over payment of disability benefits as child support did not preempt state
child support enforcement laws. See id. at 626 (holding that “Nowhere do the
regulations specify that only the Administrator may define the child support
obligation of a disabled veteran in the first instance.”). Rose expressly holds that
federal law does not prohibit a state court from determining a veteran’s child support
obligation, Id. at 626, 630-31. Therefore, the trial court did not err by considering
M.T.Q.’s veteran’s disability benefits in calculating his net resources for purposes
of child support. See id.
The USFSPA explicitly provides that “disposable retired pay” of a veteran
may be paid directly to a Title IV-D agency or to a state disbursement unit upon

8

9a
presentation of a court2 order for child support. 10 U.S.C.A. § 1408(d). After
reviewing the statute as a whole, we conclude that nothing in the USFSPA indicates
that Congress intended to preempt the ability of state trial courts to consider
veterans’ benefits in calculating the net resources of a parent who owes child
support. See generally 10 U.S.C.A. § 1408.
We now turn to the CSEA. The CSEA provides that funds due to an individual
from the United States may be used “to enforce the legal obligation of [an] individual
to provide child supportf.]” 42 U.S.C.A. § 659(a). Explicitly included within the
statute’s definition of “individual” are “members of the Armed Forces of the United
States,” and the statute also expressly permits state agencies to enforce the
individual’s child support obligation. Id. We conclude that nothing in the CSEA
indicates that Congress intended to preempt the ability of state trial courts to consider
veterans’ benefits in calculating the net resources of a parent who owes child
support. See generally 42 U.S.C.A. § 659; see also Cipollone, 505 U.S. at 516.
We next turn to the federal statute pertaining to the nonassignability and
exempt status of benefits. See 38 U.S.C.A. § 5301. The statute provides that payment
of benefits “shall not be assignable except to the extent specifically authorized by
law,.. . and shall not be liable to attachment, levy, or seizure by or under any legal

included in the USFSPA’s definition of “court” is “any court of competent
jurisdiction of any State[.]” 10 U.S.C.A. § 1408(a)(1)(A).
9

10a
or equitable process whatever, either before or after receipt by the beneficiary.” Id.
§ 5301(a)(1). We conclude that nothing in the statute indicates that Congress
intended to preempt state trial courts’ ability to include veterans’ benefits in a
parent’s net resources for purposes of setting the amount of child support. See
generally 38 U.S.C.A. § 5301; see also Cipollone, 505 U.S. at 516.
Lastly, we turn to the VAAS, which provides that all or any part of a veteran’s
“compensation, pension, or emergency officers’ retirement pay” may be apportioned
on behalf of the veteran’s children. See 38 U.S.C.A. § 5307(a)(1). According to the
statute, apportionment may occur if the veteran is not reasonably discharging his
duty to support his dependents. 38 C.F.R. § 3.450(a)(l)(ii). We conclude thatnothing
in the apportionment statute indicates that Congress expressly or impliedly intended
to preempt the ability of state trial courts to consider veterans’ benefits in calculating
the net resources of a parent who owes child support. See 38 U.S.C.A. § 5307; 38
C.F.R. § 3.450(a)(l)(ii); see also Cipollone, 505 U.S. at 516. We overrule issues one,
five, seven, eight, nine, ten, and eleven.
ISSUE TWO
In issue two, M.T.Q. argues that the trial erred by not waiting forty-five days
after the date the OAG was notified of his constitutional challenge. See Tex. Gov’t
Code Ann. § 402.010(b) (providing that “A court may not enter a final judgment
holding a statute of this state unconstitutional before the 45th day after the date
10

11a
notice ... is served on the attorney general”). M.T.Q. seems to argue that the trial
court was required to wait forty-five days before ruling on M.T.Q. ’s challenge to the
constitutionality of section 154.062 of the Family Code. When construing statutes,
we give words their plain meaning. See Epco Holdings, Inc. v. Chicago Bridge &
Iron Co., 352 S.W.3d 265, 269-70 (Tex. App.—Houston [14th Dist.] 2011, pet.
dism’d); see also Tex. Gov’t Code Ann. § 311.011(a). Section 402.010(b) of the
Government Code expressly states that the trial court must observe the forty-fiveday waiting period when entering a final judgment that declares a state statute
unconstitutional; that is, it does not require the trial court to wait forty-five days
before rejecting a challenge to the constitutionality of a statute. See id. In this case,
the trial court did not hold the statute unconstitutional; therefore, the forty-five-day
waiting period in section 402.010(b) of the Government Code does not apply. See
Tex. Gov’t Code Ann. § 402.010(b). Accordingly, we overrule issue two.
ISSUES THREE, FOUR, SIX, TWELVE, THIRTEEN, FOURTEEN, FIFTEEN,
SIXTEEN, AND SEVENTEEN
Appellate briefs ‘‘must contain a clear and concise argument for the
contentions made, with appropriate citations to the authorities and to the record
Tex. R. App. P. 38.1(i) (emphasis added). An issue that is unsupported by argument
or citation to any legal authority presents nothing for the court to review. Plummer
v. Reeves, 93 S.W.3d 930, 931 (Tex. App.—Amarillo 2003, pet. denied). An
appellant must put forth specific argument and analysis demonstrating that the
11

12a
record and the law support his contentions. San Saba Energy, L.P. v. Crawford, 171
S.W.3d 323, 338 (Tex. App.—Houston [14th Dist.] 2005, no pet.). “An appellate
court has no duty to perform an independent review of the record and applicable law
to determine whether the error complained of occurred.” Strange v. Cont 7 Cas. Co.,
126 S.W.3d 676,677 (Tex. App.—Dallas 2004, pet. denied). A pro se litigant is held
to the same standards as licensed attorneys and must comply with applicable laws
and rules of procedure. In re Office ofAttorney Gen. of Tex., 193 S.W.3d 690, 69394 (Tex. App.—Beaumont 2006, orig. proceeding).
M.T.Q. set forth issues three, four, six, twelve, thirteen, fourteen, fifteen,
sixteen, and seventeen in the statement of issues in his brief, but he included no
argument or citations to the record or the applicable law in the body of his brief. We
therefore conclude that M.T.Q. has failed to properly present these issues for
appellate review. See Tex. R. App. P. 38.1(i); San Saba Energy, L.P., 171 S.W.3d at
338; Strange, 126 S.W.3d at 677; Plummer, 93 S.W.3d at 931. Accordingly, we
overrule issues three, four, six, twelve, thirteen, fourteen, fifteen, sixteen, and
seventeen. Having overruled each of M.T.Q.’s issues, we affirm the trial court’s
judgment.
AFFIRMED.

STEVE McKEITHEN
Chief Justice
12

13a

Submitted on March 20, 2020
Opinion Delivered September 3,2020
Before McKeithen, C J., Kreger and Johnson, JJ.

13

Appendix B:
Judgement of the Texas Court of Appeals

14a

IN THE NINTH COURT OF APPEALS

14a

09-19-00037-CV

In the Interest of C.E.A.Q.

On Appeal from the County Court at Law No 3
of Montgomery County, Texas
Trial Cause No. 09-02-01465-CV

JUDGMENT
Having considered this cause on appeal, THE NINTH COURT OF
APPEALS concludes that the judgment of the trial court should be affirmed. In
accordance with the Court’s opinion, IT IS THEREFORE ORDERED the
judgment of the trial court is affirmed. No costs of the appeal are assessed as the
appellant established indigence.
Opinion of the Court delivered by Chief Justice Steve McKeithen
September 3, 2020
AFFIRMED
4c * $ * * * * * # *

Copies of this judgment and the Court’s opinion are certified for observance.

Carol Anne Harley
Clerk of the Court

Appendix C:
Notices from the Texas Court of Appeals
Denying Motion for Rehearing................
Denying Motion for Rehearing En Banc..
Granting Judicial Notice..........................
Granting Indigency.................................

15a
16a
17a-18a
19a-20a

I'lLli COPY

15a

Court of Appeals

CHIEF JUSTICE

STEVE MCKEITHEN

State of Texas
Ninth District

JUSTICES

CHARLES KREGER
HOLLIS HORTON
LEANNE JOHNSON

CLERK
CAROL ANNE HARLEY
OFFICE
SUITE 330
1085 PEARL ST.
BEAUMONT. TEXAS 7T701
409/835-8402 FAX 409/836*6497
WWW.TXCOURTS.OOV/9THCOAASPX

Tuesday, September 22, 2020
Deterrean Gamble
Assistant Attorney General
Appellate Litigation Section
P. O. Box 12017
Austin, TX 78711
* DELIVERED VIA E-MAIL *

Michael Timothy Quinn
25531 Pacer Circle
Tomball, TX 77375
* DELIVERED VIA E-MAIL *

Kara Coursey
16234 Ranchland Lane
Cypress, TX 77429
RE:

Case Number:
Trial Court Case
Number:

09-19-00037-CV
09-02-01465-CV

Style: In the Interest of C.E.A.Q.

Appellant’s Motion for Rehearing was denied this date in the above cause.

Sincerely,
CAROL ANNE HARLEY
CLERK OF THE COURT
cc:

Connie Teel (DELIVERED VIA E-MAIL)
Haleigh Nava (DELIVERED VIA E-MAIL)
Melisa Miller (DELIVERED VIA E-MAIL)
Judge Patrice McDonald (DELIVERED VIA E-MAIL)
Robert Hall (DELIVERED VIA E-MAIL)

1'lLli COPY

16a
t

Court of Appeals

CHIEF JUSTICE

STEVE MCKEITHEN

State of Texas
Ninth District

JUSTICES

CHARLES KREGER
HOLLIS HORTON
LEANNE JOHNSON

CLERK

CAROL ANNE HARLEY
OFFICE
SUITE 330
1085 PEARL ST.
BEAUMONT, TEXAS 77701
409/835-8402 FAX 403/835-8497
WWW.TXCOURTS.GOV/9THCOAASPX

Tuesday, October 13, 2020
Deterrean Gamble
Assistant Attorney General
Appellate Litigation Section
P. O. Box 12017
Austin, TX 78711
* DELIVERED VIA E-MAIL *

Michael Timothy Quinn
25531 Pacer Circle
Tomball, TX 77375
* DELIVERED VIA E-MAIL *

Kara Coursey
16234 Ranchland Lane
Cypress, TX 77429
RE:

Case Number:
Trial Court Case
Number:

09-19-00037-CV
09-02-01465-CV

Style: In the Interest of C.E.A.Q.

The Motion for Rehearing En Banc was denied this date in the above cause.

Sincerely,
CAROL ANNE HARLEY
CLERK OF THE COURT
cc:

Connie Teel (DELIVERED VIA E-MAIL)
Haleigh Nava (DELIVERED VIA E-MAIL)
Melisa Miller (DELIVERED VIA E-MAIL)
Judge Patrice McDonald (DELIVERED VIA E-MAIL)
Robert Hall (DELIVERED VIA E-MAIL)

MLli COPY

17a
Court of Appeals

CHIEF JUSTICE

STEVE MCKEITHEN

State of Texas
Ninth District

JUSTICES

CHARLES KREGER
HOLLIS HORTON
LEANNEJOHNSON

CLERK

CAROL ANNE HARLEY
OFFICE
SUITE 330
1085 PEARL ST.
BEAUMONT, TEXAS 77701
409/835-8402 FAX 409/835-8497
WWW.TXCOURTS.QOV/9THCOAASPX

Thursday, September 3, 2020
Deterrean Gamble
Assistant Attorney General
Appellate Litigation Section
P. O. Box 12017
Austin, TX 78711
* DELIVERED VIA E-MAIL *

Michael Timothy Quinn
25531 Pacer Circle
Tomball, TX 77375
* DELIVERED VIA E-MAIL *

Kara Coursey
16234 Ranchland Lane
Cypress, TX 77429
RE:

Case Number:
Trial Court Case
Number:

09-19-00037-CV
09-02-01465-CV

Style: In the Interest of C.E.A.Q.

Enclosed are copies of the Court’s Opinion and Judgment issued this date in
the above cause.
The motions to take judicial notice were granted this date.
Sincerely,
CAROL ANNE HARLEY
CLERK OF THE COURT

cc:

Connie Teel (DELIVERED VIA E-MAIL)
Haleigh Nava (DELIVERED VIA E-MAIL)
Melisa Miller (DELIVERED VIA E-MAIL)

FILE COPY

Judge Patrice McDonald (DELIVERED VIA E-MAIL)
Robert Hall (DELIVERED VIA E-MAIL)

18a

MLli COPY

19a
Court of Appeals

CHIEF JUSTICE

STEVE MCKEITHEN

State of Texas
Ninth District

JUSTICES

CHARLES KREGER
HOLLIS HORTON
LEANNE JOHNSON

CLERK

CAROL ANNE HARLEY
OFFICE
SUITE 330
1085 PEARL ST.
BEAUMONT. TEXAS 77701
409/835-8402 FAX 409/835-8497
WWW.TXCOURTS.GOV/9THCOAASPX

Tuesday, March 19, 2019
Michael Timothy Quinn
25231 Pacer Circle
Tomball, TX 77375
* DELIVERED VIA E-MAIL *

Rande Herrell
Assistant Attorney General
Child Support Division
P. O. Box 12017 (MC 038-1)
Austin, TX 78711
* DELIVERED VIA E-MAIL *

Kara Coursey
16234 Ranchland Lane
Cypress, TX 77429
RE:

Case Number:
Trial Court Case
Number:

09-19-00037-CV
09-02-01465-CV

Style: In the Interest of C.E.A.Q.

The Court did not receive a supplemental clerk’s record or reporter’s record
from an indigency hearing per our Court’s Order. The appellant has established
indigence.
The clerk’s record and the transcription of the tape-recorded proceedings are
due to be filed on or before Wednesday, May 22, 2019.

Sincerely,

CAROL ANNE HARLEY
CLERK OF THE COURT

MLBCOPY

20a
cc:

Deterrean Gamble (DELIVERED VIA E-MAIL)
Melisa Miller (DELIVERED VIA E-MAIL)
Judge Patrice McDonald (DELIVERED VIA E-MAIL)
Robert Hall (DELIVERED VIA E-MAIL)

Appendix D:
Order of the Texas Supreme Court
Denying Petition for Review........

21 a-26a

>
Ah

o

U
a

d

Uh

rH £>
CNJ U
o i

C

c\] in
V0
in ^
rH

•H

<N O
i

-P

o
4J
■H

<u

* • CM

Ph

W O
EH I
cn
Q O

0)

t 4

sfc=

P>

*

T3

Hi
<

Q)

o
Eh

■H

Eh

C

CO

O
An

T5 <D
0]
fd

<TS

o

<y
Eh T3
03
O

^
o c
a;
H

^
u <u

>

o o

m
a>
o
i
o

p OJ

i
ron
a
o

°
o

OJ 0)
>

C\] o

I

• (Xi

u

o

O rH <
Z 1

e o
<3J
a ■s
U

ex w

Q) O

<d

*«

#«

l<

u =**=

CJ

g

w o z
ed u m
'» «

ElI
J
Eh
CQ

<u ^
x: a
^ -H
^ 5!
0)

'S
o -h
>
0)
U
0

O-l

C
£>
on
: j
& a
>H M

D
O

o

g
M

<: pi
cc w
& a
*

>
Cl,

o
U

UP

d
a-

rH £>
CM U
O

C
o

os] m
\ SO

■H

in

4J

X rH
CM O
i
» i
CM
pq o
H [I

iG
-P
0)

2

<u

z
o

a

<! C7i

a o

w

p

»*

G >H
H

T3
<p

u

Eh

z

G

<D

"O J
Q)
co
<ti
X

<u

Eh
4-|
O

o
m
<n
O
\
o
CM

>
U
s
roo
o
o
O
l O*

* CTi

0 i—I
Z I

o\ H

0) O
«
U
»«
CJ 4i= EG
Ph
««
G O Z
Ph U H
»«
W
G

u

0 O
Eh
* Eh

in <3
Z

T3
q)

O
G

<L)

H
-P ^
U 4-1
P OJ
o H
0
<U 0)
>

g o
<D
u <c
a

p <p
m G
4J

<D

G
+J

■H

HJ

flj

H

>
0)
P

G

TJ
2
0 H

>H

P

CO

4-1

0

Pi

EJ
Eh
W
Q

Pi
Z

z
o

*

r- g
t—l t—I
< o
m

Eh

Eh C\]
co i
rH W
G tH

O r~ C

r-EH CO H
EG tH m
j>
Pi O Ph
a
Eh CM <
tH u x
Eh
g
0X H
W
- >
O f
G CQ oo Z H
U
oo H G
fH
* O Eh El]
Eh O
C0 a
G * U D
O G 2J <! *

8

rH j>
CM U
O

in

G

U
a

\ ^0
in
^ rH
CM O

•H
4J

h

• • CM

<u

a

Eh I
< O'*
Q O

W O
Z CM

0)
43

o w

5*4=

73

u

'H

>H H 00 sG
W D O H
CO ^
rH

Oh

c
d
U

cm

o

“H

w o

CM

4J

•*

OJ

&H

G
0)
ts <3J
m
w
4d *

o

X
<y
Eh 73
0)
CJ
^ G

° OJ
u
^
<D
u

>

o u
n

p

o

ro on
i o
o o

>

CT’i

«

0 T—I

pet]

Z

f

g o
<d 43
u
a

•

w

OJ O
c/1
U
<13

a)

<p OJ

s <y

«

CM

CJ

CM o

4 «

<0 4J
43
4-1 C

U # W
m m

s

<

o z

CJ M
4 4

3

>H

Eh
CQ

*

H

■3®

S>u
u

O
M-l

s

§

0*11
Eh S ^ p£|
^
Eh in O

C o n c

<|

H h H

MW
r- >
a >H
Eh <J
Q
Eh

a x m
vc a ru eh os
woo
W
* >
M
m

O W 33 H
O
rt a
H CM a3
* h m g
Ph fa ^ o
S3 O in cj

H
iG
C£|
Q
*

rH

CM U
O I
Oh

o
u
a
u
■Pm

m

co

\ rH

'H
4J
H

cm

M?
lO ^
CM O

EH

io

4-J

<D
Oh
0)
,C

CM
W O
EH I
< O'*
**

D O

u

EH

4J

*«

§o

TS

4t=

0)

o

Eh

C

<D

ts <U
to

(0
(d

o

03 T3
Eh
03
O
*M c

°s
5H

>

u
®
M n_j

o CJ
in |l
r*~
o co
i o
o o
CM o

o QJ
o
o u

I o

• 0*1
O T—I

•
<

z I

•

Ch DP
03 O
CO
CJ
<d
CJ *
» 4

<3
M O Z
Ph CJ H
'V *

<D

OJ

a

fd

«

3
Eh
CO

03

.c

<D 4J

^
a
4-1

-H

>i

rd

£
aj

o ij;p>

Eh
■*

>

6 o
<u ^
p
CO

*

>H

<U

Jh
O
M-|

o^i i-q

D

lo

0 O
H

o

Z >H
O Eh
S Z
D
O <r>
CJ to
o
W X
^ PCI X
u
O

in M
O
co rfj

o

g

ci

M

m

r- >
Q

X
Eh

sw

- >

>H
Eh
3
D

O
WH
CJ • O cH
H O OS W
3
3Q

u

S ft u ■>

o o

- o

rH

a.
u

>

CN O
O
cnj in

o

in ^

DQ

CM O

d

*• CN

U<

c
o

•H

rH

“H

4-)

a

w o

EH I
rfj
Q O

<D
,C

»*
4i=

73

*

4->
iPI
Z H

a

<y
-H

u
Eh

M
D I
O &q

C
<D

73
to
<d

<u
£0

o

0) 73
Eh CD
O

a
° <y

4-> 3H
<D
M 4-1

>
O CJ

m

a*i
o
i
o
CN

ron
o
o
O
I O

* CTi
0 tH

z

P <D

ch
<D ©
to
«d »«#
O *

*

<£j
dj

-

a

°
o

u

4) OJ
g >
0
0)
M .Q

a

fd

CQ

.c
4J

p 0)

<D

^
4M c

-H

>i

'* «

M O Z
pci a h
•*
Dq
>H

Eh
CQ

a;
E-h>
(d

Eh

^

u
3H
O
mh

>h <;
pq M
EH >
S Q
M w
Eh Di

w

^ >
IH

9

Pd E£)
U Q
M

S *

fH

in

Oh

o
u
m
*4
a.

£>
CM O
O
CM m

a
o

LO <sP
fH

4J
"H
4J

CM O

<u
a

*« CM

w o
Eh
<;

to

I)

a

a o
< ro in

0)
■C
4J

cti

a o
#«

«t*=

13

Eh

a

iO_i 00 CM *

<u

u

<D
T5

<u

(0
<d a
X
<D TS
EH 0)

>
o O
m
g> to oo
f o
o o
CM O
I o*
« <Ti
0 T--1

a
^
a
o <y
u
4-1
14 *
*M
p 0)

° M
u
<U

6 o

0)
14 A
fd

a

P
cm

C* Ed
<D O
•
w
a
<d * «
O
E

<y
4P
4-1

»« <
O 2
CJ H

*d
id

s

'» m

Ed
P
>H
Eh
CO

<D
>

>i

QJ
P
4J
q
H
£

<u,
o >
H

Eh

0)
U
J4
O
M-l

Eli W
O ^
H
H D
pc; co
rn D
m o . *

5U
O'
w

in
00
i
H
o
r-

r-

hP
H
^
S
i
W

i"* rij
M
>

x

H Eh
Eh Q
Eh 2 iP
M cC
2 rij EH W
M 2 >
^ Pm o h
S P
>H «
P
ifi D w
ad M O) rij Q
il O M
OUHffl*

5

Appendix E:
Order of the Texas Supreme Court
Denying Motion for Rehearing

27a-32a

rH

>

U
O

CM U

o
P-t

O
U
til
Ml

&

cm

*4-1

in

c

\o
CM

cn

O

cH

■H

o

4-J

s

o
£ >
dJ
<!P u
£1

CM
* • CD

W I
Eh 03
<3 O
Q

~P

U
O
^ 4H
0)
C
C O
<U
.

**
Sft=

u
Eh

* -H£
« 4J

<d

>3
<U
Eh
<H
°

cti

o cn
t o
o o
cm o
E

<D

g
O
*

O H <

Z

i

03

<u o
<0
fti

•

£jq

u

I 4

a
C3

0)

a)

>

o

/y -Q

P

03

a)

<D si
jG 4-3

g

-P 4-|

o z

■8 a

• ■

M
(0

u =**=
•• ««

g

TJ
«

P <H
O <D

i
r-

• 03

a

* Sa)

>

o u
in

oj

U H

>, 0

g-s
a;

>H
Eh
03

.c
(U

$H

>H
03

D
O

a

rH £>
CS] U

>

Oh

O
U

m

U
O
4-1

o

CM ID
\ VJD

c

O

CM rH

-H

^ o

+J J
oa .S
>

oo

cm

*# o
W

i

Eh C^i
f< O

Q

**

4*=

<u

(U
yj

4-1

*H

w
a
w
w

Tl ^

XI >h
XI

C

05
0 0

Eh

£ o
<H .y
« X

<d Oj
«U
Eh

a

T3
0)

o
° *c

*> s

>

in <D
p 4H

o U
uD I

° <U
u
JH

CTi 0-

O 00

I o
o o

<|)

<D

CM O

6

i o
« cn *
0 H <

a X)fd

a \

O^i w
OJ 0

u

s

p

co <u
XJ

<D *j

-U 4H

0 41=
»«

>

<L) o
M

o a
o M
»«

3
Eh
CO

(d
T3

tn

o c

Eh "H

U
fC

OJ
■C

03
M

a

'

*

r- x

Eh H H
rfj O
CO

Eh
4
Eh

CO

»«

S
O
m

a

u

co
<d

0

6
tH

XI

X rH

fCtJ
O t> <J
r- Eh 00 H
X rH H r- £>

^o ^

Eh CM <
rH U

O
X X]
Eh

X
W O X H
X
Eh
O i
xi xi pq oo a h
oo h XI
Q U
*■

M

!>

* O EH XI
0 Q
o

f X
(X X 4 U D
S O X s <! *

a,
O

•u
m
d

rH >
CM U
O
cm m
cp
cp

M
O
d
o

CM rH

^ o
ro
CM
*• o
W I
Eh CTi
<J O
Q

^ <3J
° -H
>

e
<u

Q)

o w

X!
4J

**
4*=
U
Eh

Eh

O
4H

<P
'H C
a 0
<D ,
T3 h
4J
•H

<d <u
*i ft
<D
E-I -£j

o S
° d

* sa)

>
o u
m

*H
p <4H
° 0
CJ

a> rO <D

o

<u

o o
CM O

s
*

a

G^i

o 1—i ^

Z

f

m

<p o
£0
»«

u
u * w
»•

ad

F<

soz
a
U M
»«
>H

Eh
CO

0>
g >
<3J O
^ n
P dco 0)

x

-u u_|
>i

CM
W O
2 CM

o

<0 tyi

a

° -H
Eh U
<G
0)
x:
<U
u

In
W
Z
ad
O
Eh
h] Eh
XI F<
§3 W

*

n hi
D o H
CO ^ rtj
h

hs

I I
S
W
in O
O 00 rfj
h r- h
r— >
35 >H
eh <
a
Eh
K XM
DS W 35 H od
WOO
W
m
m h>
o W 33 W H
Pd u
o xi
M CM Oh W
- W in a Q
w ^ o
o m o+

1

rH £>
>
cl,

cm

c
CM rH

04

o

O-

O

m

O
U

d

u

CM U
O

>H

O

ro i

cm

o
W I
Eh <7\
<3 O

*H *g

Eh

O I

iO

<D

U

O

ftf
pq
S
O
0

*«

Q

<D

u

-P

»*

44=

<u

o

~H G
G 0

04 .3

■o £

«q

S<u sa
*

Eh T)
<M ®

a
o G

■P

U

>

<p
G <N
° CD

o O
in

ro oo
i o
o o

CJ

<D Q)

g

CM O

I

« 0s!

o
*

0 H <c
Z I
a> pq
<U o

w

<d

»«

CJ 44=
# 4

<

^

O

s

pq O Z
Pi CJ M
>fr 4

P4
XI
>H

Eh
CQ

>
<D o
H J-S

G
<U
x3
<D
jd ,Jp
+J q_j
>1

o

cd
T5 G
_H
E0
h h
U
<0

<L)

x:
<u
u

*

EH
Pi
1=5
O
U

ai XI
in h
<n
o

EH

I

in
S3 >h
o
O Eh
co
S Z
ED
OC\h
Z cj in
j

Cl

pq
<
m

>

a.

[

pq >h
X M
G ^ X H ^
o BO
w

a4

>h
O
Eh
CD *
Z
Eh O
D
Z
O O
*
CJ
S3 Pm

•* >
pq h

O X!
ft! W
Z Q

o

CJ *

rH
CM O
>*
Cl,

O

u

UQ
•J
tti

o

cm

M
O

in

a

<jD
CM rH

O ,
-H >
-P ft

\ o
cn
*#

og .S

cm

o

>

<u um

EP i
Eh cn
<G O
Q

*«
4*=

U
Eh

TS 4Oh

X!
25 H
23

~H
a
G o
0>

W

■o ‘H
4J
■H

« P
<d OJ
X
<y a
Eh
T3
^ O
O G
<U
P H

>
O U
in
<71 r-

p

f o
o o
CM O

I o*

K

®

s®

o m

■ <Xl
0 T—I

*

I

<D <3J
g :>
OJ o
u A
:P <d

a

C7. C£|

03

O

x: ^

u ** w

P 4j_j

<p o
Ifl

<d

•9 9

»«§

<

*

rC

oc;

M O Z
eC u m
#«

£X
>H

<D ^

>i

o

cd

■o g1
o .5
* u

cd

<u

Eh

03

CO

U

D f
O W
^>H

a h
eh

o

>

S a
M

H

a

^ >

DJ
CJ Q
H

s *

£L,

O
U
pj

d
o-

rH £>
CM CJ
o
CM LO
M3

^

o

f;

d

o

CM cH
\ o
on

£

i*

cm

e
fl>
A

»« o

m I

Eh CTi
<C O
Q
»*
4*=
CJ
Eh

>
*
H

^ u
Tl ^
°
M
OJ
£

C
o

ffi -H

TS 4J

« P
fti 0)

w a

Eh ^
M
o

O
m
<yi
o
E
o
CM

>
CJ
i
roo
O
o
o

•1

®
O
d

4J
U
OJ
p P
O Q)
CJ M

<D
S

a

« CTl
*
o m rtj
2 i
CTl W
OJ o
CO
cj
■P
CJ *fc=

0)
>
<D O
^ p
P <d
w a;
Xl

s
>,°tn
•• C
t «■

M O 2
Pi CJ H
ft 4

a

CO

-P ^_j

fd
73
Eh

d
'H
Jh
rc
OJ
P
<3J

n

m
PM O
00 CM *
00 UO
m P
Pm P3 oo H
O Eh E
'
hH rH
H D o
p£ to r- H
rCO D
mo
*■ t- rtj
M
C o P
eh
>
O
CO x
M Eh
Eh a
Eh Z P
H OJ
*P Z rij H W
^ S >
* CM O H
S P
>H «
P aS m D m
Oi W 00 <d Q
<C P o w
CJ CJ m pq *

a

.S

Appendix F:
Lower Court Record Entries

33a-77a

33a
Department of Veterans Affairs

February 3,2020

In Reply Refer To: 351/21

MICHAEL QUINN
25531 PACER CIR
TOMBALL TX 77375

CSS 645037293
QUINN, MICHAEL

Dear Mr. Quinn:
We have carefully considered the claim for an apportioned share of your benefits. After
reviewing all evidence admiiticd by you and Kata Alexander, tin; claim for an apportionment
roust be denied because an apportionment would c«i« undue financial hardship 138 CFR
3.451). We also received evidence drawing jtm arc contributing to the support ofCharity
Alcxander-Quiim (38 CFR 3.450(c)) AH withheld hinds arc being released to you.
Notify us immediately ofany change in your marital status or the status ofyour dependents.
Any reduction discontinuance of benefits caused by marriage or death ofa dependent or
discontinuance of a child's school attendance will be effective the first day ofthe month
following the month the change occurred. Failure to notify us of these changes will result in an
overpayment which is subject to recovery'.
This decision was made in accordance with: 38 CFR 3.450,38 CFR 3.458

Evidence Used to Decide Your Claim
In making our decision, we considered:
• VA Form 21 -0788, Information Regarding Apportionment ofBeneficiary s Award,
received on October 18,2019
• VA Form 21-4138. Statement in Support ofClaim, received on October 18,2019
• VA Form 21-4138, tenement in Support ofClaim, received on October 24,2019
• VA Form 5655, Financial Status Report, received on October 24,2019
• VA Form 21-0788, information Regarding Apportionment ofBeneficiary' 's Award,
' received on October 24.2019
• VA Form 21-4138. Statement in Support ofClaim, received on January 8,2020
• VA Form 5655, Financial Status Report, received on January 8,2020
• VA Form 21-4138, Statement in Support ofClaim, received on January 8,2020
v___

34a
2
CSS 645037293
QUINN, MICHAEL

What You Should Do If You Disagree With Our Decision on Your
Contested Claim
If you do nol agree with our decision, you have 60 days from the date of this letter to select a
review option in order to protect your initial filing date for effective date purposes. You must file
your request on the required application form for the review option desired. The table below
represents the review options and their respective required application form.
Review Option
Supplemental Claim
Higher-Level Review
Appeal to the Board of
Veterans1 Appeals

Required Application Form
VA Form 20-0995, Decision Review Request: Supplemental
Claim
VA Form 20-0996, Decision Review Request: Higher-Level
Review
VA Form 10182, Decision Review Request: Board Appeal
(Notice ofDisagreement)

Please note: You may not request a higher-level review of a higher-level review decision issued
by VA.
The enclosed VA Form 20-0998, Your Rights To Seek Further Review Of Our Decision, explains
your options in greater detail and provides instructions on how to request further review. You
may download a copy of any of the required application forms noted above by visiting
www.va.pov/vaforms/ or you may contact us by telephone at 1-800-827-1000 and we will mail
you any form you need.
You can visit www.va.gov/decision-reviews to learn more about how the disagreement process
works.
If you would like to obtain or access evidence used in making this decision, please contact us by
telephone, email, or letter as noted below letting us know what you would like to obtain. Some
evidence may be obtained online by visiting VA.gov.

What Is eBenefits?
eBcneflts provides electronic resources in a self-service environment to Servicemembers,
Veterans, and their families. Use of these resources often helps us serve you faster!
Through the eBenefits website you can:
•
•
.
•

Submit claims for benefits and/or upload documents directly to the VA
Request to add or change your dependents
Update your contact and direct deposit information and view payment history
Request a Veterans Service Officer to represent you

35a
3

CSS 645037293
QUINN, MICHAEL
•
•
•

Track the status of your claim or appeal
Obtain verification of military service, civil service preference, or VA benefits
And much more!
Enrolling in eBenefits is easy. Just visit vvww.eBenefits.va.jtoy for more information. If
you submit a claim in the future, consider filing through eBenefits. Filing electronically,
especially if you participate in our fully developed claim program, may result in a faster
decision than if you submit your claim through the mail.

If You Have Questions or Need Assistance
If you have any questions or need assistance with this claim, you may contact us by telephone, email, or letter.
Telephone

Use the Internet
Write

Call us at 1-800-827-1000. If you use a
Telecommunications Device for the Deaf (TDD), the
Federal number is 711._________________________
Send electronic inquiries through the Internet at
https://iris.custhelp.va.gov.
_________
VA now uses a centralized mail system. For all written
communications, put your full name and VA file number
on the letter. Please mail or fax all written
correspondence to the appropriate address listed on the
attached Where to Send Your Written Correspondence.

In all cases, be sure to refer to your VA file number 645037293,
If you arc looking for general information about benefits and eligibility, you should visit our
website at https://www.va.BOv. or search the Frequently Asked Questions (FAQs) at
https://iris.va.gov

36a
4
CSS 645037293
QUINN, MICHAEL
Wc sent a copy of this letter to your representative, DISABLED AMERICAN VETERANS,
whom you can also contact if you have questions or need assistance.
Sincerely yours,

Regional Office Director
Enclosures:

Where to Send Your Written Correspondence
VA Form 20-0998

Enclosures: VA Form 20-0998
Where to Send Your Written Correspondence
cc:

21/031/PMC

DISABLED AMERICAN VETERANS

37a

FILED
20*0950
2/17/2021 10:38 AM
lex-50676944
SUPREME COURT OF TEXAS
BLAKE A. HAWTHORNE, CLERl<

No. 20-0950
In the Supreme Court of Texas
Michael Timothy Quinn
Petitioner,
v.
Kara Coursey,
Respondent.

From the Ninth Court of Appeals, Cause No. 09-19-00037-CV,
and the County Court at Law #3 for Montgomery County,
Cause No. 09-02-01465, Honorable Patrice McDonald

APPELLANT’S MOTION FOR REHEARING

Michael Timothy Quinn

Telephone: 832-922-1433
michacl.timquinn@gmail.com
Pro Se

38a
IDENTITY OF PARTIES AND COUNSEL
The following is a complete list of parties, attorneys, and any other person
who has an interest in the outcome of this lawsuit:
APPELLANT:
SGT. Michael Quinn, a citizen of the United States and the State of Texas was
a Respondent below and is the Appellant in this court.
Represented by:
Michael Timothy Quinn

(832) 922-1433
michaeltim. quinn@gmail. com
APPELLEE:
The Appellees in this Court and the Petitioner below is the Office of Attorney
General acting in their State Title IV-D capacity.
Represented by:
Deterrean Gamble
Assistant Attorney General
Appellate Litigation Section
P.O. Box 12017
Austin, TX 78711
APPELLEE:
Kara Coursey, a citizen of the United States and the State of Texas, is the
Custodial Parent and is an Appellee in this Court.
Represented by:
Kara Coursey

39a
TO THE HONORABLE COURT:
NOW COMES, Appellant Michael T. Quinn (“SGT Quinn”), and files this
Motion for Rehearing in accordance with TEX. R. APP. Rule 64 in response
to the State Supreme Courts decision to not review Appellant’s Petition.
Petition for Review disposed and denied by the Court on February 5, 2021,
Appellant now request that the Court considering the following issues in
depth:
ISSUES PRESENTED FOR REVIEW
Issue 1: The court of appeals erred in finding that there was no evidence to
support appellants properly filed petition and form required by TEX GOV.
CODE SEC. 402.010 (a-1) to challenge the constitutionality of a state statute.
Issue 2: The court of appeals erred in finding that there was no evidence to
support the appellants arguments as there exist no sworn and notarized
controverting affidavit to the appellants “arguments” as the appellate court
states which were presented to the trial court in uncontroverted, properly filed
sworn and notarized due process affidavit.
Issue 3: The court of appeals erred in finding that the appellant isn’t entitled to
raise challenge to subject matter jurisdiction.
Issue 4: The court of appeals erred in finding that it had right to collect from
any source considering that determination ignored a third party jurisdiction
that would exist with the open apportionment that was finalized before the
court of appeals ruling.
Issue 5: The court of appeals erred in finding that the appellee and State were
entitled to misappropriation by fiduciary by illegal assignment ofright.

40a
Issue 6: The court of appeals erred in creating a nonexistent statute they called
the Veterans Administration apportionment statute (VAAS) in leu of 38 USC
section 5307 or referring to the Veterans Judicial Review Act of 1988 that
created the Veterans board of appeals giving it independent judicial authority.
Issue 7: The court of appeals erred in holding Rose v Rose preempted
appellant benefit in the matter while ignoring the Rose v Rose rebuttal averred
in appellants notarized and sworn affidavit. Charlie Rose didn’t hold an
apportionment of his benefit, but appellant does hold an apportionment.
Issue 8: The court of appeals erred in concluding that Congress intended for
veterans’ disability benefits to be enforced in state proceedings to enforce a
valid child support order without ignoring Congress passed EXPLICIT new
amended code after Rose v Rose changing 38 USC 211 to 38 USC 511.
Issue 9: The court of appeals erred in finding 42 USC 659(a) expressly
permits state agencies to enforce the individual’s child support obligation by
explicitly excluding 42 USC 659 (h)(l)(B)(iii) as it applies to appellant.

Issue 10: The court of appeals erred in finding USFSPA applied when
appellant averred in notarized and sworn affidavit that his non-disposable
disability retirement is waived to receive benefits that fall under the protection
of 38 USC 511 and 38 USC 5301.
Issue 11: The court of appeals erred in claiming that Qippollone relevant to
this case as it did not involve a disabled veteran with a RIPE DENIAL
APPORTIONMENT from Secretary of Department of Veteran Affairs.
Issue 12: The court of appeals erred in claiming that appellant failed to
provide clear and concise arguments, made with appropriate citations to the
authorities and to the record when appellant filed complaint of lack of having
the whole trial record filed September 4, 2019 for court of appeals to issue
ruling on.
Issue 13: The court of appeals erred in affirming the trial court judgment when
it ruled in favor of appellant’s motion for judicial notice filed February 11,
2020 and granted September 3, 2020 that trial court and appellant court lacked

41a
jurisdiction by granting but not applying non-conflicting verbiage to the
memorandum order.
Issue 14: The court of appeals erred in affirming the trial court judgment when
it ruled in favor of appellant’s first supplement request for judicial notice filed
August 10, 2020 and granted September 3, 2020 that the panel should discuss
and address the effect of federal preemption on the trial courts subject matter
jurisdiction or appellants ability to challenge the terms of the consent
judgement outside direct appeal and how these questions continue to remain
uncontroverted and important.
ARGUMENT
The court of appeals reviews a plea questioning the trial court’s subject
matter jurisdiction de novo. See Texas Dep’t ofParks & Wildlife v. Miranda,
133 S.W.3d 217, 226 (Tex. 2004). It focuses on appellant’s petition to
determine whether the facts that were pled affirmatively demonstrate that
subject matter jurisdiction exist. Id. At 226. It construes the pleadings liberally
in favor of the the plaintiff. Id. The petition to challenge the constitutionality
of a state statute was properly filed to the County Clerk February 16, 2018
with the required form needed outlined in TEX GOV. CODE SEC. 402.010
(a-1) to challenge the constitutionality of a state statute. [CR PG 100] Even if
this wasn’t properly filed by the County clerk this was included in appellants
sworn notarized due process affidavit as an attachment. Which you can view
in trial court records pg 80.
The U.S. Supreme Court continues to make clear, pleadings ofpro se
litigants are to be held to less rigorous standards than those drafted by
attorneys. Haines v. Kerner, 404 U.S. 519, 520 (1972)(per curiam).
Furthermore, pro se filings should be construed liberally, and courts HAVE A
DUTY TO ENSURE that pro se litigants do not lose their right to a hearing on
their claim due to ignorance of technical procedural requirements.
February 16, 2018 appellant filed a sworn under oath and notarized
affidavit of due process averring my due process right and supporting statutes
and case law. This sworn and notarized under oath affidavit states:

42a
“uncontested averments and allegations of the following in support of motion
must be considered as true in absence of controverting affidavit.” [CR PG 80]
Black Law's Dictionary 4th Ed. Defines Affidavit as follows:
"AFFIDAVIT. A written or printed declaration or statement offacts, made voluntarily, and confirmed by the oath or
affirmation of the party making it, taken before an officer having authority to administer such oath.
Cox v. Stern, 170 III. 442, 48 N.E. 906,62 AmSt.Rep. 385;
Hays v. Loomis, 84 III. 18.
A statement or declaration reduced to writing, and sworn to or affirmed before some officer who has authority to
administer an oath or affirmation.
Shelton v. Berry, 19 Tex. 154, 70 Am.Dec. 326, and In re Breidt, 84 NJEq. 222, 94 A. 214,216."

Black Law's Dictionary 4th Ed. Defines Notary Public as follows:
NOTARY PUBLIC. A public officer whose function it is to administer oaths; to attest and certify, by his hand and
official seal, certain classes of documents, in order to give them credit and authenticity in foreign jurisdictions; to
take acknowledgments of deeds and other conveyances, and certify the same; and to perform certain official acts, chiefly
in commercial matters, such as the protesting of notes and bills, the noting of foreign drafts, and marine protests in cases
of loss or damage.
Kip v. People's Bank & Trust Co., 110 NJ.L. 178,164 A. 253,254.

An affidavit is admissible evidence, although some courts may require
you to testify to the affidavit or they may consider it hearsay. The court denied
appellants request to testify, the court granted a new trial based on part to the
argument appellant wasn’t afforded right to testify to his uncontroverted by
affidavit averments that was properly filed and presented to the court with
appellant’s petition to challenge the constitutionality of a state statute. These
records weren’t present to the court of appeals, although, appellant
complained in an informal motion that was labeled a letter due to appellant
improper labeling of form. That letter of lack of all of the court reporter
records to point to in order to show preservation of trial arguments by
appellant can be found in court of appeals records for submission labeled
letter dated August 4,2019. What is the Difference between Sworn Statements
“arguments” and Affidavits? Sworn statements are very similar to another
class of court documents called “affidavits”. Affidavits contain similar
statements and claims, but have been signed, witnessed, and certified by a
public official. This official is usually a notary public or a court official. The
certification makes the document even more acceptable as a form of evidence.
In most cases, both affidavits and sworn statements can be entered as evidence
in a trial. For instance, in a personal injury case, the court may admit an
affidavit wherein the plaintiff states that they had a previous neck injury prior

43a
to a car accident. However, most courts would prefer to enter in an affidavit
rather than a sworn statement. On the other hand, the process of having a
statement certified and signed by a notary public or court official can be timeconsuming. Many courts are recognizing this and are treating sworn
statements in a very similar manner to affidavits. TEX. PROPERTY CODE
SEC. 52.0012 allows for the release of judgement lien based solely on the
proper filing of an uncontroverted homestead affidavit. Clearly this shows
within the TX statute the importance of uncontroverted affidavits and their
legal precedence.
On September 3,2020 the court of appeals granted Appellant’s Motion
for Judicial Notice filed before the court February 11,2020 in doing so
concluding Appellant was properly afforded due process, and on
February 3,2020, the Secretary rendered his VA Apportionment ruling
pursuant to IM-98-03 by the VJRA of 1988. Claimant Mrs. Kara
Coursey is required to filed her Notice ofDisagreement within the allotted
60 days to the only court with appellate jurisdiction, the Board of
Veterans’Appeal, and as stated in VA Form 20-0998 that accompanied
that decision. The Secretary’s decision is final: no portion goes to the
Appellee Kara Coursey on behalf of the child subject to the claim,
(emphasis added)
In light of the Apportionment denial ruling, the State of Texas and OAG
must now obey 38 U.S.C. § 511(a) “The Secretary shall decide all questions
of law and fact necessary to a decision by the Secretary under a law that
affects the provision of benefits by the Secretary to veterans or the
dependents ... of veterans.... the decision of the Secretary as to any such
question shall be final and conclusive and may not be reviewed by any
other official or by any court, whether by an action in the nature of
mandamus or otherwise." (emphasis added) The State of Texas and OAG
must now also obey 38 U.S.C. § 5301(a). Therefore, the application of TEX.
FAM. CODE § 154.062(b)(5) has been and will continue to be unjust and
inappropriate in the Appellant SGT Quinn’s case. Appellant SGT Quinn’s

44a
independent VA Apportionment judgment, as ordered by both U.S. Congress
under the authority of the Secretary of the Department of Veterans Affairs and
properly initiated by the Texas Title IV-D Agency, did take the best interest of
the child into "careful and compassionate consideration" as indicated in VA
Form 20-0998.
38 U.S.C. § 5301 is the Nonassignability and Exempt Status of Benefits.
Appellant SGT Quinn’s VA service-connected disability benefits award is
protected by 38 U.S.C § 5301.

38 U.S.C. § 5301(a) states that: "(1)

Payments of benefits due or to become due under any law administered by the
Secretary shall not be assignable except to the extent specifically authorized
by law, and such payments made to, or on account of, a beneficiary shall be
/

exempt from taxation, shall be exempt from the claim of creditors, and shall
not be liable to attachment, levy, or seizure by or under any legal or equitable
process whatever, either before or after receipt by the beneficiary. "l
Appellant SGT Quinn now avers that the VA has privity of contract with
absolute sovereign immunity of the U.S. when it comes to asserting his ripe
Apportionment ruling that unequivocally indicates that the vested VA
disability benefits award is for Appellant to spend as he sees fit.2
From the U.S. Supreme Court ruling of ROSE V. ROSE, 481 U. S. 619
(1987), the late Associate Justice Antonin Scalia, concurring in part and

1 Higgins v. Beyer, 293 F3d. 683, p. 686 & 694 (3d Cir. 2002) (Section 5301(a) provides a
federal right that is enforceable under 42 U.S.C. § 1983.) "Higgins's procedural due process
rights are enforceable under § 1983. Sec Zinermon, 494 U.S. at 125, 110 S.Ct. 975 ('A § 1983
action may be brought for a violation of procedural due process. . ..’)" ”[W]e conclude that
Higgins's pro se complaint, when liberally construed, stated sufficient facts to state a cause of
action for a violation of a federal right under § 5301(a), and a deprivation of his Fourteenth
Amendment right to notice and hearing prior to the deprivation of his property interest in the
proceeds of his veteran's benefits... under the Due Process Clause.”
2 Sanchez Dieppa v. Rodriguez Pereira, 580 F.Supp 735 (1984).

45a
concurring in the judgment, writes "I would not reach the question whether
the State may enter a support order that conflict with an apportionment ruling
made by the Administrator [now Secretary of the Department of Veterans
Affairs], or whether the Administrator may make an apportionment ruling that
conflicts with a support order entered by the State. Ante, at 627. Those
questions are not before us, since the Administrator has made no such
ruling." ... "/ am not persuaded that if the Administrator makes an
apportionment ruling, a state court may enter a conflicting child support
order. It would be extraordinary to hold that a federal officer's authorized
allocation of federally granted funds between two claimants can be
overridden bv a state official. ” Pase 481 U.S. 641
Justice Scalia continues, "I also disagree with the Court's construction of
38 U.S.C. 211(a), which provides that '[decisions of the Administrator on any
question of law or fact under any law administered by the Veterans'
Administration providing benefits for veterans and their dependents . . . shall
be final and conclusive and no other official or any court of the United States
shall have power or jurisdiction to review any such decision.' The Court finds
this [§ 211] inapplicable because it does not explicitly exclude state-court
jurisdiction, as it does federal; ante, at 629." Ibid.
"Had the Administrator granted or denied an application to apportion
benefits, state court action providing a contrary disposition would arguably
conflict with the language of § 211 making his decisions 'final and conclusive’
— and, if so, would, in my view, be preempted, regardless of the Court's
perception that it does not conflict with the 'purposes' of § 211. But there is
absolutely no need to pronounce upon that issue here. Because the
Administrator can make an apportionment only upon receipt of a claim,
Veterans' Administration Manual M21-1, ch. 26, § 26.01 (Aug. 1, 1979), and

46a
because no claim for apportionment of the benefits at issue here has ever been
filed, the Administrator has made no 'decision' to which finality and
conclusiveness can attach." ... "The Court again expresses views on a
significant issue that is not presented." Page 642
It is very remarkable here that immediately following the noted Rose
deficiencies, U.S. Congress passed The Department of Veterans Affairs Act of
1988 (Pub.L. 100-527) transforming the former Veterans Administration into
a Cabinet-level Department of Veterans Affairs. It was signed into law by
President Ronald Reagan on October 25, 1988. And as previously mentioned,
the previously noted Veterans' Judicial Review Act of 1988 granted exclusive,
independent jurisdiction of the VA Apportionment Claim process within the
newly created federal court system and Title 38 § 211 was amended to
overcome the noted lacking exclusivity language. Congress subsequently
codified § 211 as § 511 in 1991 to properly engross "Secretary" language
consistent with the new Department of Veterans Affairs Act. 42 U.S.C. § 662
relating to allowable garnishment exclusions of veterans' compensation for
enforcement of child support orders granted in the Rose decision was also
repealed in Pub. L. 104-193, title III, § 362(b)(1), 110 Stat. 2246, (Aug. 22,
1996) effective beginning fiscal year 1997 after Congress ascertained that VA
Apportionment claims were being properly provisioned by 38 U.S.C. § 512.
38 U.S. Code § 511 now EXPLICITLY EXCLUDES state-court jurisdiction.
Most noteworthy, 38 U.S.C. § 511 is the Decisions of the Secretary;
finality, and such decisions lie solely with the Secretary of the Department of
Veterans Affairs, not the State of Texas. Section 511(a) was signed into the
U.S. Code four years after the Rose decision. Under the Secretary's authority
in 38 U.S.C. §§ 511(a) & 5307 and 38 CFR Sections 3.450-3.458, “The
Secretary shall decide all questions of law and fact necessary to a decision by

47a
the Secretary under a law that affects the provision of benefits by the
Secretary to veterans or the dependents ... of veterans." ... "the decision of the
Secretary as to any such question shall be final and conclusive and may not be
reviewed by any other official or by any court, whether by an action in the
nature of mandamus or otherwise." (emphasis added)
Another noteworthy shortcoming discussed in the Rose case; "the
implementing regulations, which simply authorize apportionment if 'the
veteran is not reasonably discharging his or her [child support] responsibility .
.

contain few guidelines for apportionment, and no specific procedures for

bringing claims." Page 481 U.S. 619 And continuing, "it seems certain that
Congress would have been more explicit had it meant the VA's apportionment
power to displace state court authority." Pages 619-620
Those sparse guidelines were resolved in 1998 when Federal
Commissioner for the Office of Child Support Enforcement (“OCSE”), David
Gray Ross, published Information Memorandum IM-98-03, with
Congressional oversight, to every state and commonwealth Title IV-D Agency.
IM-98-03 is entitled Financial Support for Children from Benefits Paid by
Veterans Affairs and is a Federal OCSE policy directive that now instructs the
Texas Title IV-D Agency on how to properly submit the independent claim for
apportionment to the Department of Veterans Affairs for those Texas veterans
whose benefits are legally defined, during due process, as “not remuneration
for employment”. Four specific instructions for proper submission of a VA
Apportionment claim, VA FORM 21-0788 INFORMATION REGARDING
APPORTIONMENT OF BENEFICIARY’S AWARD, by the State of Texas
are now to be followed:

1. The IV-D agency (state child support enforcement office) should

48a
write the Department of Veterans Affairs using agency letterhead to
request an apportionment review. The letter should be signed by both
the appropriate IV-D official and the custodial parent. The letter should
be addressed to the VA Regional Office servicing that veteran’s
benefits. Use the toll-free number to determine which regional VA
office is appropriate (1-800-827-1000).
2. Complete and attach VA Form 21-4138 "Statement in Support of
Claim." The
normal VA procedure is to request this after receiving an apportionment
application,
so time can be saved by doing this as part of the first step. This is where
information
regarding income and net worth may be provided.
3. Attach a copy of the current support order, to assist VA in the
development of
the apportionment award.
4. Attach a copy of the arrearage determination sheet, payment ledger,
payment
records, etc.
Under 38 CFR 3.458, Veteran’s benefits will not be apportioned: (g) "If
there are any children of the veteran not in his or her custody an
apportionment will not be authorized unless
and until a claim for an apportioned share is filed in their behalf."
What's more from 1997, the VA Office of General Counsel Precedent
Opinion 4- 97 holds that a regional office must not consider a state court
support order as an apportionment claim. Additional findings of OGC 4-97,”

49a
Pursuant to 38 U.S.C. § 7104(a), the Board has jurisdiction to review '[a]ll
questions in a matter which under section 511(a) of this title is subject to
decision by the Secretary.' Section 511(a) authorizes the Secretary to 'decide
all questions of law and fact necessary to a decision by the Secretary under a
law that affects the provision of benefits by the Secretary to veterans or the
dependents or survivors of veterans.' See also 38 C.F.R. § 20.101(a) (Board’s
jurisdiction extends to review of all decisions 'under a law that affects the
provision of benefits by the Secretary to veterans or their dependents or
survivors.'). Thus, the Board’s appellate jurisdiction is generally coextensive
with the Secretary’s authority under 38 U.S.C. § 511(a) to render initial
decisions.
Privity of Contract: Privity of Contract refers to the relationship between
the parties to a contract which allows them to sue each other but prevents a
third party from doing so. It is a doctrine of contract law that prevents any
person from seeking the enforcement of a contract, or suing on its terms,
unless they are a party to that contract. As a general rule, a contract cannot
confer rights or impose obligations arising under it on any person except the
parties to it.3
Pursuant to 38 U.S.C. § 5301(a), Appellant is considered in privity of
contract with an independent nonparty VA Apportionment contract judgment
that indicates unequivocally that Appellant’s VA award is provided solely for
his support and visitation costs with his child. Appellant's privity of contract
with the VA is protected and backed under the preemptive authority of the
Contract Clause found in Article 1, Section 10 of the Constitution which
provides that "No State shall.. . pass any ... law impairing the Obligation of
Contracts."
3 Privity of Contract Law & Legal Definition, http://defimtions.uslegal.eom/p/Drivitv-of-contract/ {Sept. 26, 2017)

50a
This guarantee is also provided to Appellant by the Texas Constitution,
Article 1. Bill of Rights, Sec. 16. "No bill of attainder, ex post facto law,
retroactive law, or any law impairing the obligation of contracts, shall be
made." VA Awards and Apportionment rulings or judgments are considered
in privity of contract only between family claimants under 38 U.S.C. §§
5307 & 511. The State of Texas is and has always been a third party when
it comes to Appellant’s VA disability compensation benefits award.
Therefore, the State of Texas, not legally a party to Appellant's VA award
contract, has been prohibited from seeking establishment and enforcement
of its child support order utilizing Appellant's VA award. To do so flagrantly
violates the sovereign immunity of the U.S. Under the authority granted
exclusively with the Secretary of the VA in § 511, the State of Texas is barred
from imposing any obligations for Appellant to pay child or spousal support
from Appellant's protected preemptive VA award. The Houston VARO
Regional Counsel (“RC”) has authority to represent the independent claims
and facts relevant to this legal matter between Appellant and Apellee Kara
Coursey as claimants entitled to privity of their VA apportionment claim. In
accordance with 38 C.F.R. 14.500, 14.501 and 14.504, the Houston VARO RC
also has exclusive authority to summons the Office of the U.S. Attorney
regarding the federal improprieties which may arise in this legal matter.4
Since the 1987 Rose decision, U.S. Congress has actively legislated to
preclude both the state and its officials from disregarding proper, independent
VA Apportionment claims between family claimants. However, this is now
Appellant’s instant case question presented to the State of Texas, in notarized
uncontroverted affidavit form, that must be answered without disregard and
contempt of submitted post 1987 federal laws, regulations, directives and high
4 Veterans Administration v. Kee, 706 S.W.2d JO1 (1986).

51a
court rulings.
It must be reiterated here that the Rose v. Rose SCOTUS ruling was based
upon the fact that disabled veteran Charlie Wayne Rose was never afforded a
proper VA Apportionment claim review. "Those questions are not before us,
since the Administrator has made no such ruling." A VA Apportionment Claim
ruling was never before the 1987 Court. However in 2018 a Pre-Apportioned
Due Process Affidavit asking for an apportionment claim review, with the
filing of VA FORM 21-0788, on behalf of the child to the independent
jurisdictional nonparty with exclusive jurisdiction and considered in privity of
contract to the Houston VARO along with all County Court at Law #3 support
orders with Cause Number 09-02-01465-CV and "copy of the arrearage
determination sheet" as directed by IM-98-03 initiated the claim. Appellant
responded as a claimant in privity of contract with the apportionment review
request by providing visitation expense receipts (i.e., family law attorney
retainer fees, travel expenses, gifts, etc.) for his dependents dating back to the
initially alleged arrears beginning date of February 2018. Appellant further
included his denial to due process emails, court transcriptions, orders from the
Title IV-D Agency and Court, as well as proof of the Custodial Parent refusing
to properly file a claim.
In the evidence and averments before you here, however, Appellant was
properly afforded due process, and on February 3, 2020, the Secretary
rendered his VA Apportionment ruling pursuant to IM-98-03 by the VJRA of
1988. Claimant and Appellee Mrs. Kara Coursey was required to file her
Notice of Disagreement within the allotted 60 days to the only court with
appellate jurisdiction, the Board of Veterans’Appeal, and as stated in VAForm
20-0998 that accompanied that decision. The Secretary’s decision is final; no
portion goes to Mrs. Kara Coursey on behalf of the child subject to the claim.

52a
(emphasis added) In light of the Apportionment denial ruling, the State of
Texas and OAG must now obey 38 U.S.C. § 511(a) “The Secretary shall
decide all questions of law and fact necessary to a decision by the Secretary
under a law that affects the provision of benefits by the Secretary to veterans
or the dependents ... of veterans.... the decision of the Secretary as to any such
question shall be final and conclusive and may not be reviewed by any other
official or by any court, whether by an action in the nature of mandamus or
otherwise." (emphasis added) The State of Texas and OAG must now also
obey 38 U.S.C. § 5301(a). Therefore, the application of TEX. FAM. CODE §
154.062(b)(5) has been and will continue to be unjust and inappropriate in
Appellant’s case as it deprives and and is devoid of Appellant’s due process
right to have the Secretary determine if a portion of Veteran benefit award
had been received in leu of disposable retirement pay prior to attachment.
Appellant’s independent VA Apportionment judgment, as ordered by both
U.S. Congress under the authority of the Secretary of the Department of
Veterans Affairs, which should have been initiated by the Texas Title IV-D
Agency, did take the best interest of the children into "careful and
compassionate consideration" as indicated in VA Form 20-0998.
38 U.S.C. § 5301 is the Nonassignability and Exempt Status of Benefits.
Appellant’s VA service connected disability benefits award is protected by 38
U.S.C. § 5301. 38 U.S.C. § 5301(a) states that: "(1) Payments of benefits due
or to become due under any law administered by the Secretary shall not be
assignable except to the extent specifically authorized by law, and such
payments made to, or on account of, a beneficiary shall be exempt from
taxation, shall be exempt from the claim of creditors, and shall not be liable to
attachment, levy, or seizure by or under any legal or equitable process

53a
whatever, either before or after receipt by the beneficiary.”5 Appellant avers
that the VA has privity of contract with absolute sovereign immunity of the
U.S. when it comes to asserting his ripe Apportionment ruling that
unequivocally indicates that his vested VA disability benefits award is for him
to spend as I see fit.6 as granted September 3, 2020 from the appellate court
with Appellant’s Motion for Judicial Notice filed February 11,2020.
From the VA Office of General Counsel, Precedent Opinion 2-2002
Nonassignability of Benefits—38 U.S.C. § 5301(a) Citation: "4. An
ASSIGNMENT is a transfer of property or some other right from one person
to another that confers a complete and present right to the assignee in the
subject matter of the assignment. 6 Am. Jur. 2d Assignments § 1 (1999); see
also Black’s Law Dictionary 115 (7th ed. 1999) (transfer of rights or
property). The term 'assignment' ordinarily refers to a transfer of intangible
rights in property, as opposed to transfer of property itself, 6 Am. Jur. 2d
Assignments § 1 (1999), i.e., a transfer of a right to receive payments, rather
than a transfer of the funds themselves. An assignment is by its nature a
voluntary transfer. 6 Am. Jur. 2d Assignments § 2 (1999)."
"(3)(A) This paragraph is intended to clarify that, in any case where a
beneficiary entitled to compensation, pension, or dependency and indemnity
compensation enters into an agreement with another person under which

5 Higgins v. Beyer, 293 F3d. 683, p. 686 & 694 (3d Cir. 2002) (Section 5301(a) provides a
federal right that is enforceable under 42 U.S.C. § 1983.) "Higgins's procedural due process
rights are enforceable under § 1983. See Zinermon, 494 U.S. at 125, 110 S.Ct. 975 ('A § 1983
action may be brought for a violation of procedural due process. . ..')" "[W]e conclude that
Higgins's pro se complaint, when liberally construed, stated sufficient facts to state a cause of
action for a violation of a federal right under § 5301(a), and a deprivation of his Fourteenth
Amendment right to notice and hearing prior to the deprivation of his property interest in the
proceeds of his veteran’s benefits... under the Due Process Clause.”
6 Sanchez Dieppa v. Rodriguez Pereira, 580 F.Supp 735 (1984).

54a
agreement such other person acquires for consideration the right to receive
such benefit by payment of such compensation, pension, or dependency and
indemnity compensation, as the case may be, except as provided in
subparagraph (B), and including deposit into a joint account from which such
other person may make withdrawals, or otherwise, such agreement shall be
deemed to be an ASSIGNMENT and IS PROHIBITED." (emphasis added)
"(3)(C) Any agreement or arrangement for collateral for security for an
agreement that is prohibited under subparagraph (A) is also prohibited and is
VOID from its inception.” (emphasis added) The False Claims Act (“FCA”),
31 U.S.C. §§ 3729 - 3733, sets forth liability for any person who knowingly
submits a false claim to the government or causes another to submit a false
claim to the government or knowingly makes a false record or statement. A
false claim, in this instance, is defined as a demand for a portion of
Appellant's VA award made directly to appellant by any Texas judge or Title
IV-D official to be paid to his children or the custodian.
See also 38 U.S. CODE § 6101

MISAPPROPRIATION BY

FIDUCIARIES. Shall be fined in accordance with title 18, or imprisoned not
more than five years, or both:
The AG of Texas became the defacto “fiduciary” as defined in section 5506 of
title 38—
(1) a person who is guardian, curator, conservator, committee, or person
legally vested with the responsibility or care of a claimant (or a claimant’s
estate) or of a beneficiary (or a beneficiary’s estate); or
(2) any other person having been appointed in a representative capacity to
receive money paid under any of the laws administered by the Secretary for
the use and benefit of a minor, incompetent, or other beneficiary.
38 U.S. CODE § 6101 - MISAPPROPRIATION BY FIDUCIARIES

55a
(a) Whoever, being a fiduciary (as defined in section 5506 of this title) for the
benefit of a minor, incompetent, or other beneficiary under laws administered
by the Secretary, shall lend, borrow, pledge, hypothecate, use, or exchange for
other funds or property, except as authorized by law, or embezzle or in any
manner misappropriate any such money or property derived therefrom in
whole or in part and coming into such fiduciary's control in any manner
whatever in the execution of such fiduciary’s trust, or under color of such
fiduciary’s office or service as such fiduciary, shall be fined in accordance
with title 18, or imprisoned not more than five years, or both.
Therefore, when the OAG, signed on behalf of Attorney General of Texas,
Ken Paxton, proclaiming that he was the “fiduciary” for denied VA
Apportionment Claimant and mother K Coursey, he has now engaged in
misappropriation of Appellant’s vested VA award under color of his office
where no assignment of the right existed. See also §§ 5905; & 6102
31 CFR Part 212 Final Rule June 2013 is the Garnishment of Accounts
Containing Federal Benefits. Appellant’s service-connected VA disability
compensation benefits award is such a protected federal benefit. The preamble
of the Final Rule directs appellant to cite, invoke, and assert the protections of
38 U.S.C. § 5301(a):...federal payments subject to garnishment by child
support enforcement agencies under 42 U.S.C. 659 are limited to payments
based on remuneration for employment. This does not include VA payments
other than those representing compensation for a service-connected disability
paid to a former member of the Armed Forces who is in receipt of retired or
retainer pay and who has waived a portion of the retired or retainer pay in
order to receive such compensation. . . if an account containing ... VA
payment is garnished by a state child support enforcement agency, the
noncustodial parent is not required to go to court to have the funds released

56a
and therefore does not necessarily face a time-consuming, expensive, and
confusing process to free the funds. Rather, a noncustodial parent whose
account is garnished for child support can contact the child support
enforcement agency directly (usually by phone), explain that the account
being garnished contains ... VA payments, and provide a copy of his or her ...
VA payments statement in order to have the benefits released.. .Nothing in the
rule restricts or prevents an individual who receives ... VA payments ... from
challenging in court the garnishment of those payments for child support
obligations in the event a State child support enforcement agency does serve
such a garnishment order on a financial institution.7 As a warning to those
officials who disregard this promulgated regulation, 18 U.S.C. § 1344
authorizes a fine of not more than $1,000,000 and imprisonment of not more
than 30 years.
In addition to previously cited federal civil rights, property division,
spousal and child support calculations must not take into consideration any of
Appellant’s VA award as this would violate numerous potential 18 U.S. Code
violations, including Sections 241, 246, 249(a), 371, 641, & 666 to list a few.
There are indications within the January 29, 2015 joint Department of Justice
and U.S. Department of Health and Human Services letter, that it’s very
possible Appellant may have also similarly been denied custodial time with
his child and discriminated against contrary to his rights granted him in the
Americans with Disabilities Act of 1990 (“ADA”) after a portion of his
independent VA Award was assigned in property division, spousal and child
support establishment and enforced without any substantive due process and
Texas Judicial District Court jurisdiction. With regards to Title II of the ADA,

7 Federal Register /Voi 78, No. 103/Wednesday, May 29, 20!3/Rules and Regulations, Page
32103 hltDs://fiscal.treasurv.£ov/files/eft/reeuIalions/31cfr212final.vdf (December 14, 2018)

57a
Appellant cautions the State of Texas that he have a right to bring a suit under
42 U.S.C. § 12132, for any potential prejudicial discrimination and unequal
opportunity resulting in exclusion and denial of programs and services from
the public entity that is the Texas Title IV-D Agency. Appellant potentially
may bring suit against Defendants, the State of Texas and the Title IV-D
Agency pursuant to 42 U.S.C. § 12202 a State shall not be immune under the
eleventh amendment to the Constitution of the United States from an action in
a Federal or State court of competent jurisdiction for a violation of this
chapter. In any action against a State for a violation of the requirements of this
chapter, remedies (including remedies both at law and in equity) are available
for such a violation to the same extent as such remedies are available for such
a violation in an action against any public or private entity other than a State.
And with regards to Section 504 of the Rehabilitation Act of 1973 (“Section
504”), Appellant could then bring a suit under 29 U.S.C. § 794 for
exclusionary participation in, benefits denial and subjection to discrimination
under the programs and activities receiving Federal financial assistance,
incentives, grants, etc. conducted by the Texas Title IV-D Agency. Pursuant to
794a(a)(2), “the remedies, procedures, and rights set forth in title VI of the
Civil Rights Act of 1964 (42 U.S.C. 2000d et seq.) (and in subsection (e)(3) of
section 706 of such Act (42 U.S.C. 2000e-5), applied to claims of
discrimination in compensation) shall be available to any person aggrieved by
any act or failure to act by any recipient of Federal assistance or Federal
provider of such assistance under section 794 of this title.” These harmful
state-enforced financial orders have severely curtailed Appellant’s dependent
visitation resources and has drastically curtailed his ability to have a
meaningful relationship with his dependent.
15 U.S.C. § 1681 establishes accuracy and fairness of credit reporting

58a
known formally as the Fair Credit Reporting Act. Section 168 In is the Civil
liability for willful noncompliance, and Section 1681o is the Civil liability for
negligent noncompliance of this Act. Section 1681p states "An action to
enforce any liability created under this subchapter may be brought in any
appropriate United States district court, without regard to the amount in
controversy..."
National Security implications are well indicated in Appellant’s current and
previous child support orders and as discussed in McCarty v. McCarty, 453
U.S. 210 (1981). The refusal of a Texas court judge to accept constitutional
clauses, current acts of Congress and higher federal court rulings on the
limitations of their jurisdiction in matters of National Security can be seen as a
treasonous act under the color of law. For in doing so, such disregard of
federal laws and regulations interferes with the current Congressional
veterans’ disability benefit scheme which serves as an important inducement
for the nation's voluntary military service structure. The principle of federal
sovereign immunity precludes the individual states from suing without its
consent. In Appellant's instant case, the sovereign immunity of the U.S. has
not been waived and is contemptuously being ignored by the State of Texas.
18 U.S.C. Section 2381 - Treason must be noted in examining the
engrossed language found in § 154.062(b)(5) of the TEX. FAM. CODE. It is
devoid of substantive and procedural due process rights each Texas disabled
veteran must be granted in every judicial or administrative child support
proceeding.
Under 5 C.F.R. § 581.401, Appellant’s true "aggregate disposable
earnings" are not to include my VA benefits award, for demonstrated privity of
contract, and therefore, lack of subject matter jurisdiction by the family court,
in both establishment or assignment in any legal process.

59a
Therefore, based upon the fact that an independent 2020 VA
Apportionment Claim Denial ruling with privity of contract was issued
regarding Appellant VA Award under the full authority of the Secretary,
Appellant now respectfully request that the Court find my 2019 child support
order and all support orders, beginning in December 2009, to be void ab initio
as guided by 38 U.S.C. § 5301(a)(3)(C): "Any agreement or arrangement for
collateral for security for an agreement that is prohibited under subparagraph
(A) is also prohibited and is void from its inception." Furthermore, pursuant to
45 CFR 302.56(g), Appellant refuses to pay any child support until the Title
IV-D Agency follows all the federal laws, regulations, and policy directives as
contracted with the Federal Office of Child Support Enforcement (“OCSE”)
and monitored by the Region VI Dallas, Texas office.
Houston VARO has now made an authorized ruling in accordance with the
Veterans' Judicial Review Act of 1988, and procedural requirements for the
simultaneously contested claim by the Veterans Claims Assistance Act of 2000
codified in part at 38 U.S.C. §§ 5103, 5103A and implemented in part at 38
C.F.R. § 19.100, 19.101, and 19.102 on the state alleged arrears based upon
the rendered child support order following a proper apportionment application
submission which should’ve been initiated by the Title IV-D agency. The only
jurisdiction for an appeal by Claimant Mrs. Kara Coursey of the VA
Apportionment ruling is and was the Board of Veterans' Appeal as stated in
the accompanied VA Form 20-0998: The Veteran Judicial Review Act of 1988
establishes the procedure for review of claims relating to the administration of
VA Benefits. 38 U.S.C. § 511. A party dissatisfied with the VA’s resolution of
a benefits-related issue cannot simply sue; he must instead pursue a specific
appellate dispute-resolution path.
That path begins in the Board of Veterans' Appeals. 38 U.S.C. § 7104(a). If

60a
dissatisfied with that body's ruling, the party may appeal the ruling to the
Court of Appeals for Veterans Claims, 38 U.S.C. § 7252(a), then to the Court
of Appeals for the Federal Circuit, 38 U.S.C. § 7292, and finally to the United
States Supreme Court, 38 U.S.C. § 7292(c). The Veterans Judicial Review Act
of 1988 grants jurisdiction to these courts and denies it to all others.
Before directing a disputant to one of these courts, a court must decide
whether the Veterans Judicial Review Act (VJRA) applies. The VJRA
precludes courts from reviewing the VA's decision on “all questions of law
and fact necessary to a decision by the Secretary under a law that affects the
provision of benefits by the Secretary to veterans." 38 U.S.C. § 511(a). State
courts are not among the tribunals granted exclusive jurisdiction to review
assigning a portion of VA disability compensation to a dependent. See 38
U.S.C. §§ 5307, 7104(a), 7252(a), 7292, 7292(c). “The ‘only way to
challenge’ a benefits-management decision, the Seventh Circuit has explained,
‘is through the mechanism set up by Congress, a mechanism that does not
allow for review by the state court.”T0 The D.C. Circuit, too, has advised that
VJRA procedures form “[t]he exclusive avenue for redress of veterans'
benefits determinations," Price v. United States, 228 F.3d 420, 421 (D.C. Cir.
2000) (per curiam opinion). 28 U.S. Code § 1652 - State laws as rules of
decision "The laws of the several states, except where the Constitution or
treaties of the United States or Acts of Congress otherwise require or provide,
shall be regarded as rules of decision in civil actions in the courts of the
United States, in cases where they apply." (emphasis added)
The State of Texas is excluded as an independent third party to a VA
Apportionment claim review considered in privity of contract strictly between
authorized claimants as provided in Article Six and the Fourteenth
Amendment of the U.S. Constitution as well as a requirement by numerous

61a
post-1987 Acts of Congress. If I am denied my lawful asserted demands, both
the Secretary of Health & Human Services and the Director of the Region VI
Dallas office of OCSE will receive a copy of this notarized affidavit along
with a notification of the Texas Title IV D Agency's refusal to follow, proper
legal procedures regarding this disabled veteran's federal civil rights.
From Veterans for Common Sense v. Shinseki, 678 F.3d 1013, 1016 (9th
Cir. 2012),'"We conclude that we lack jurisdiction to afford such relief
because Congress, in its discretion, has elected to place judicial review of
claims relate to the provision of veterans' benefits beyond our reach and
within the exclusive purview of the United States Court of Appeals for
Veterans Claims and the Court of Appeals for the Federal Circuit... Without
jurisdiction the court cannot proceed at all in any cause. Jurisdiction is power
to declare the law, and when it ceases to exist, the only function remaining to
the court is that of announcing the fact and dismissing the cause.’ Ex parte
McCardle, 74 U.S. (7 Wall.) 506, 514, 19 L.Ed. 264 (1868) ... we conclude
that granting 9 Hill v. United States, No. 5:18-CV-21-DCM-MTP, 2018 WL
1902375, at *2 (S.D. Miss. Apr. 20, 2018) 10 Evans v. Greenfield Banking
Co., 774 F.3d 1117 (7th Cir. 2014). VCS its requested relief would transform
the adjudication of veterans'benefits into a contentious, adversarial system—
a system that Congress has actively legislated

to preclude. See Walters v.

Nat'/Assn. of Radiation Survivors, 473 U.S. 305,

323-24, 105 S.Ct. 3180, 87

L.Ed.2d 220 (1985). The Due Process Clause does not demand such a
system."
Anestis v. United States, No. 13-6062, 8 (6th Cir. 2014), "In 2012, the
Ninth Circuit synthesized the case law and concluded that ’[38 U.S.C.] §
51 lprecludes jurisdiction over a claim if it requires the district court to review
rfVA decisions that relate to benefits decisions," including "any decision made

62a
by the Secretary in the course of making benefits determinations. urn
"Whatever springes the state may set for those who are endeavoring to
assert rights thatthe state confers, the assertion of federal rights, when plainly
and reasonably made, is not to be defeated under the name of local practice.
Even if the order went only to the venue, and not to the jurisdiction, of the
court, each Director General in turn plainly indicated that he meant to adopt
the position of his predecessor, and to insist that the suit was brought in the
wrong county. His lawful insistence cannot be evaded by attempting a
distinction between his appearance and his substantially contemporaneous
adoption of the plea. Indeed, when the law requires him to unite his defense
on the merits, which imports an appearance pro hac vice, with his preliminary
plea, it is hard to understand how any effect could be attributed to the
statement that he appeared. The state courts may deal with that as they think
proper in local matters, but they cannot treat it as defeating a plain assertion of
federal right. The principle is general and necessary. Ward v. Love County,
253 U. S. 17, 253 U. S. 22. If the Constitution and laws of the United States
are to be enforced, this Court cannot accept as final the decision of the state
tribunal as to what are the facts alleged to give rise to the right or to bar the
assertion of it, even upon local grounds. Creswill v. Grand Lodge Knights of
Pythias, 225 U. S. 246. This is familiar as to the substantive law, and, for the
same reasons, it is necessary to see that local practice shall not be allowed to
put unreasonable obstacles in the way. See American Ry. Express Co. v.
Levee, ante, 263 U.S. 19.” Davis v. Wechsler, 263 U.S. at 24-25 (1923).
Rankin v. Howard, No. 78-3216. 633 F.2d 844 (9th Cir.1980) "...when a
judge knows that he lacks jurisdiction, or acts in the face of clearly valid
statutes or case law expressly depriving him ofjurisdiction, judicial immunity
is lost. See Bradley v. Fisher, 80 U.S. (13 Wall.) at 351 (’when the want of

63a
jurisdiction is known to the judge, no excuse is permissible'); Turner v.
Raynes, 611 F.2d 92, 95 (5th Cir.1980) (Stump is consistent with the view that
'a clearly inordinate exercise of un-conferred jurisdiction by a judge-one so
crass as to establish that he embarked on it either knowingly or recklesslysubjects him to personal liability’)."
The court of appeals granted September 3, 2020 Appellant’s First
Supplemental Request for Judicial Notice filed August 10, 2020 agreeing with
appellant’s averments that this case preempts state law as noted in Appellant’s
First Supplemental Request for Judicial Notice in the case Foster v. Foster.
Further the court granted the motion Appellant’s First Supplemental Request
for Judicial Notice that concludes the Supreme Court of our sister state
Michigan concluded April 29, 2020 that the question of the effect of federal
preemption of the trial court’s subject matter jurisdiction or the defendants
ability to challenge to terms of the consent judgement outside of direct appeal.
The Appellant, in this case, is a pro se litigant. Article VI of the United
States Constitution makes “the Constitution the Supreme Law of the Land,”
Cooper v. Aaron, 358 U.S. 1, 18 (1958), “which is also the Supreme Law of
[Texas],” Poindexter v. Greenhow, 114 U.S. 270, 292 (1885).
“An unconstitutional law will be treated by the Courts as null and void,”
Board of Liquidation v. McComb, 92 U.S. 531, 532, 541 (1875), because “the
constitution and laws of a State, so far as they are repugnant to the
constitution and laws of the United States, are absolutely void” Cohen v.
Virginia, 19 U.S. 246, 414 (1821) accord Maybury v. Madison, 5 US 137, 174,
176 (1803).
“In other words, no state can, in respect to any matter, set at naught the
paramount provisions of the National Constitution.” Braxton v. West Virginia,
208 U.S. 192, 197(1908).

64a
“It is State action of a particular character that is prohibited. Individual
invasion of individual rights is not the subject-matter of the [14th]
amendment. It has a deeper and broader scope. It nullifies and makes void all
State legislation, and State action of every kind, which impairs the privileges
and immunities of citizens of the United States, or which injures them in life,
liberty or property without due process of law, or which denies to any of them
the equal protection of the laws. United States v. Stanley, 103 U.S. 3, 11-12
(1883).
It is axiomatic that “[a] fair trial in a fair tribunal is a basic requirement of
due process.” Caperton v. A.T. Massey Coal Co., 556 U.S. 868, 876, 129 S.
Ct. 2252, 2259, 173 L. Ed. 2d 1208 (2009). Interpreting the Due Process
Clause the Supreme Court of the United States has established that even
convicted felons serving active sentences as prisoners and children have a
fundamental right to enjoy meaningful access the courts in a series of
important cases, including Ex parte Hull, 312 U.S. 546 (1941), Johnson v.
Avery, 383 U.S. 483 (1969), and Bounds v. Smith, 430 U.S. 817 (1977).
Planned Parenthood of Central Missouri v. Danforth, 428 U.S. at 428 U. S. 74.
Prince v. Massachusetts, 321 U. S. 158, 321 U. S. 170 (1944). See Ginsberg v.
New York, 390 U. S. 629 (1968). See also McKeiver v. Pennsylvania, 403 U.
S. 528(1971).
This Court has made it clear that pleadings of pro se litigants are to be held
to less rigorous standards than those drafted by attorneys. Haines v. Kemer,
404 U.S. 519, 520 (1972) (per curiam). Furthermore, pro se filings should be
construed liberally and courts have a duty to ensure that pro se litigants do not
lose their right to a hearing on their claim due to ignorance of technical
procedural requirements. Balisteri v. Pacifica Police Department, 901 F. 2d
696, 699 (9th Cir. 1990); Borzeka v. Heckler, 739 F. 2d 444, 447 n. 2 (9th Cir.

65a
1984); Cripps v. Life Ins. Co. of North America, 980 F. 2d 1261, 1268 (9th
Cir. 1992) (Default judgment vacated in part due to pro se status of Petitioner
and unfamiliarity with court procedures).
Pro se litigants, as well as those represented by counsel, are entitled to
meaningful access to the courts. See Bounds v. Smith, 430 U.S. 817, 828
(1977); Wolff v. McDonnell, 418 U.S. 539, 579 (1974); Ross v. Moffitt, 417
U.S. 600, 612-15 (1974) ; Johnson v. Avery, 393 U.S. 483, 485 (1969);
Rudolph v. Locke, 594 F.2d 1076, 1078 (5th Cir. 1979).
Sufficient access to the courts is a right protected by the Due Process
Clause of the Fourteenth Amendment. See Wolff, 418 U.S. at 579-80; Corpus
v. Estelle, 409 F. Supp. 1090, 1097 (S.D. Tex. 1975), affd, 542 F.2d 573 (5th
Cir. 1976); Potuto, The Right of Prisoner Access: Does Bounds Have
Bounds?, 53 Ind. L.J. 207, 215-19 (1977-78); Note, Prisoners' Rights- Failure
to Provide Adequate Law Libraries Denies Inmates' Right of Access to the
Courts, 26 U. Kan. L. Rev. 636, 643-44 (1978).
Sufficient access to the courts is equally a fundamental right protected by
the First Amendment, which guarantees a person’s use of the judicial process
to redress alleged grievances. See Cruz v. Beto, 405 U.S. 319, 321 (1972)
(right to petition Government for redress of grievances); NAACP v. Button,
371 U.S. 415, 428-29 (1963)(same), Bounds v. Smith, 430 U.S. 817, 825
(1977); Wolff v. McDonnell, 418 U.S. 539, 579 (1974); Johnson v. Avery, 393
U.S. 483,488(1969).
Procedural due process imposes constraints on governmental decisions
which deprive individuals of "liberty" or "property" interests within the
meaning of the Due Process Clause of the Fifth or Fourteenth Amendment,
even in the civil context at issue here, See, e. g., Richardson v. Belcher, 404 U.
S. 78, 80-81 (1971); Richardson v. Perales, 402 U. S. 389, 401-402 (1971);

66a
Flemming v. Nestor, 363 U. S. 603, 611 (1960).
The "right to be heard before being condemned to suffer grievous loss of
any kind, even though it may not involve the stigma and hardships of a
criminal conviction, is a principle basic to our society." Joint Anti-Fascist
Comm. v. McGrath, 341 U. S. 123, 168 (1951) (Frankfurter, J., concurring).
The fundamental requirement of due process is the opportunity to be heard “at
a meaningful time and in a meaningful manner." Armstrong v. Manzo, 380 U.
S. 545, 552 (1965). See Grannis v. Ordean, 234 U. S. 385, 394 (1914);
Fuentes v. Shevin, 407 U.S. 67, 81, 92 S.Ct. 1983, 1994, 32 L.Ed.2d 556
(1972).
The right to notice and the opportunity to be heard "must be granted at a
meaningful time." Fuentes, 407 U.S. at 81, 92 S.Ct. at 1994; Cleveland Bd. of
Education v. Loudermill, 470 U.S. 532, 542, 105 S.Ct. 1487, 1493, 84 L.Ed.2d
494 (1985).
“Finality requirement for constitutional claims of due process violation that
implicate a due process right either to a meaningful opportunity to be heard or
to seek reconsideration of an adverse [] determination. Evans v. Chater, 110
F.3d 1480, 1483 (9th Cir. 1997).”
CONCLUSION
For the foregoing reasons, the Appellant hereby prays this Court will grant
this motion for rehearing, withdraw its opinion, reverse the Judgement of the
Trial Court. In accordance with 28 U.S.C. § 1738B, the Full Faith and Credit
Clause only limits filing a federal lawsuit against the State of Texas if the
child support order is made consistently whenever the court that makes the
order has SUBJECT MATTER JURISDICTION and grants full due process,

67a
which although Appellee wants to ignore, Appellant has proven by the
Appellee’s refusal to assist in a proper and legal apportionment through the
Department of Veteran Affairs. “Rooker-Feldman... does not bar actions by
nonparties [i.e. the VA] to the earlier state-court judgment simply because, for
purpose of preclusion law, they could be considered privity with a party to the
judgment.” Lance v Dennis, 126 S. Ct. 1198, 1203 (2006). “The doctrine,
however, does not preclude federal jurisdiction over an 'independent claim,’
even ‘one that denies a legal conclusion that a state court has reached.’”
Exxon Mobil Corp. v Saudi Basic Indus. Corp. 544 U.S. 280, 293 (2005).
Until the State of Texas of Texas considers a ‘just’ and ‘appropriate’ child
support order calculation with Appellant’s VA award, and declares all child
support orders dating back to December 2009 Void in law and without any
legal force or effect along with an order of total recoupment than Appellant
will be blatantly denied both unfettered full access to his personal
compensation by identity theft by the Title IV-D Agency against Appellant’s
protected Social Security number via illegal Income Withholding orders, as
well as denial to protected federal civil rights from a contentious, adversarial
system that U.S. Congress has actively legislated to preclude from such
contempt. The Supreme Court of Texas at one time understood this protection
as was the case for Veterans Admin v Kee 706. S.W. 2d 101 (1986).
Michael Timothy Quinn

(832) 922-1433
michael.tim.quinn@gmail.com
Appellant - pro se

68a
CERTIFICATE OF SERVICE

I certify that on the 17 day of February 2021, this Appellant’s Motion for
Rehearing was served on Counsel under Texas Rule of Appellate Procedure
9.5(b):

Deterrean Gamble

Kara Coursey

Assistant Attorney General
Appellate Litigation Section
P.O.Box 12017
Austin, TX 78711

Michael Timothy Quinn

(832) 922-1433
michael.tim.quinn@gmail.com
Appellant - pro se

*

Automated Certificate of eService
This automated certificate of service was created by the efiling system.
The filer served this document via email generated by the efiling system
on the date and to the persons listed below:

69a

Envelope ID: 50676944
Status as of 2/17/2021 10:43 AM CST
Associated Case Party: Robert Hall
Name

BarNumber

Robert Hall

Email

TimestampSubmitted

Status

CSD-legal-667@texasattomeygeneral.gov

2/17/2021 10:38:06 AM

SENT

Associated Case Party: Office of the Attorney General of Texas - Appellee
Name

BarNumber

TimestampSubmitted

Email

CSD-APPEALS@oag.texas.gov 2/17/2021 10:38:06 AM

Deterrean Gamble

Status
SENT

Associated Case Party: KaraElisabethCoursey
Email

TimestampSubmitted

Status

Kara Coursey Jr

karajunior87@gmail.com

2/17/2021 10:38:06 AM

SENT

Kara Coursey

karajunior87@hotmail.com

2/17/2021 10:38:06 AM

SENT

Name

BarNumber

Associated Case Party: MichaelTimothyQuinn
BarNumber

Name
Michael TimothyQuinn

Email

TimestampSubmitted

michael.tim.quinn@gmail.com 2/17/2021 10:38:06 AM

Status
SENT

Associated Case Party: Deterrean Gamble
Name
Deterrean Gamble

BarNumber

Email

TimestampSubmitted

Status

deterrean.gamble@oag.texas.gov

2/17/2021 10:38:06 AM

SENT

FILED

70a

20-0950
12/

r45 AM

NOTICE: THIS DOCUMENT CONTAINS SENSITIVE DATA

!T OF TEX/

CL
Cause Number:
f77» CtoiVa office WIN flit in the Cause Numbet when you file this form)

Plaintiff: Michael Timothy Quinn

In the

(Print firs? and last name of the person Ming the lawsuit)
Court
Number

And

Defendant: Kara Elisabeth Coursev
(Print first and lost name of the parson being sued./

* *2.
(check one)’.
District Court
County Court f County Court at Law
Justice Court
Texas

§

County

Statement of Inability to Afford Payment of
Court Costs or an Appeal Bond
1. Your Information
My full legal name is: Michael

Timothy

First

Middle

Quinn

My date of birth is:

Last

MonihAJay/Year

address is:
(Moiling)

______________

My phone number: 8329221433 Mv email: mi

.tim.quin

About my dependents: ‘The people who depend on me financially are listed below.
Relationship to Me

6
2. Are you represented by Legal Aid?
0 I am being represented in this case for free by an attorney who works for a legal aid provider or who
received my case through a legal aid provider. I have attached the certificate the legal aid provider
gave me as 'Exhibit: Legal Aid Certificate.
-or(X] I asked a legal-aid provider to represent me, and the provider determined that I am financially eligible
for representation, but the provider could not take my case. I have attached documentation from
legal aid stating this.

or□ I am not represented by legal aid. I did not apply for representation by legal aid.
3. Do you receive public benefits?
□ I do not receive needs-based public benefits. - or on indigency:
(Check ALL boxes that apply and attach ptooflo this form, such as a copy of an eligibility form or check.)
B Food stamps/SNAP
0TANF 0 Medicaid
0 CHIP 0 SSI 0WIC 0AABD
0 Public Housing or Section 8 Housing 0 Low-Income Energy Assistance 0 Emergency Assistance
0 Community Care via DADS
0 Telephone Lifeline
0 Lis in Medicare ("Extra Help")
0 Needs-based VA Pension 0 Child Care Assistance under Child Care and Development Block Grant
0 County Assistance, County Health Care, or General Assistance (GA)
0 Other:
______ __________ ___ __________________________________________

O Form Approved by the Supreme Court of Texas by order tn Wise. Docket No. 16-9122
Statement ofInability to Afford Payment of Court Costs

Page 1 ef2

a

71a
4. What is your monthly income and income sources?
“^cHhi^jonthly income:
for
monthly wages. I work as a_____________
I
Youi /ab title
jn monthly unemployment, f have been unemployed since (auto)

Yaw employe/

jn public benefits per month.
from other people in my household each month: (Ust only it ether memhers contribute to your
household income.)
□ Worker’s Comp
.from O Retirement/Pension □ Tips, bonuses
[53 Disability
IS Social Security
□ Military Housing □ Dividends, interest, royalties
□ Child/spousal support
□ My spouse's income or income from another member of my household #r available)
.from other jobs/sources of income,
is my fofe/ monthly income.
5. What is the value of your property?
^My property includes:
Cash
si
Bani^^ouj^^jj^jj^^a^assetel

6. What are your monthly expenses?
‘My monthly expenses are:
Rent/house payments/maintenance

Amount

Food and household supplies
Utilities and telephone
Clothing and laundry
Medical and dental expenses
Insurance (life, health, auto, etc.)

s|
s]
Other property (like jewelry, stocks, tai
another house, etc.)

$

School and child care
Transportation, auto repair, gas
Child / spousal support
Wages withheld by court order

Dej^^j^^^ to:

U
s
Total Monthly Expenses -+
Total value of property
'The value is the amount the item would sell for less the amount you still owe on n. if anything.
7. Are there debts or other facts explaininqyourfrnancialsituation?
eMv debts include: (List debt and amount owed)

{If you want the court to consider other facts, such as unusual medical expenses, family emergencies, etc., attach another page to
this form labeled 'Exhibit: Additional Supporting Facts."} Check here if you attach another page. □
8. Declaration
I declare under penalty of perjury that the foregoing is true and correct. I further swear:
FK I cannot afford to pay court costs,
g] I cannot furnish an appeal bond or pay a cash deposit to appeal a justice court decision.

My name

Michael Timothy Quinn
;s is

My date of birth is
City

F/~><^3igned on 12/01 2020in
Month/Oay/Year

State

Harris
county name

© Form Approved by the Supreme Court of Texas by order in Mrsc. Docket No. 16-0122
Statement of Inability to Afford Payment of Court Costs

Zip Code

Country

County, TX____
State

Page 2 of 2

v.ua,vju) / visiiaaon

https://maiLgoogIc.com/roai1/u/0/?ui=2&ilc=395d4IVtoM£jsver=ci.

72a
M Gmail

Michael Quinn <michael.tim.quinn@gmail.com>

18E-1003410 Custody / Visitation
1 message
Luz Gama <luz.gama@hvlp.org>
To: michaeltim.quinn@gmail.com

Thu, Jun 7, 2018 at 3:51 PM

Dear Mr. Quinn,
You recently applied to the Houston Volunteer Lawyers for assistance in locating a lawyer to help you with your
legal problem. Unfortunately, we have limited resources and cannot provkje every applicant to our program with a
volunteer lawyer. After reviewing your case, we have determined that we cannot provide a volunteer lawyer to
represent or advise you going forward. As a result, we will be unable to fujnish any further legal services to you.
and we have had to dose your file.
Our decision to dose your file does not mean that your case lades legal merit. Please consider contacting one of
the following agendes, which might be able to assist you in resolving your case.
Houston Lawyer Referral Service
Houston, TX 77002. Phone: (713) 237-9429 or (713) 2894577
www.hfrs.org
You may also find helpful information about your legal problem at www.TexasLawHelp.org.
Please call us at (713) 228-0732 if you need further assistance.
Sincerely,
Luz Gama

Luz Gama J Program Manager
Houston Volunteer Lawyers | 1111 Bagby, Suite FLB 3001 Houston, Texas 77002 1713.275.0124
www.MakeJusticeHappen.org

of 1

6/7/18.6:40 PM

73a
Automated Certificate of eService
This automated certificate of service was created by the efiling system.
The filer served this document via email generated by the efiling system
on the date and to the persons listed below:

Envelope ID: 48502622
Status as of 12/1/2020 9:49 AM CST
Associated Case Party: Office of the Attorney General of Texas - Appellee
BarNumber Email

Name

TimestampSubmitted Status

CSD-APPEALS@oag.texas.gov 12/1/2020 9:45:49 AM

Deterrean Gamble

SENT

Associated Case Party: Deterrean Gamble
BarNumber Email

Name

TimestampSubmitted Status

deterrean.gamble@oag.texas.gov 12/1/2020 9:45:49 AM

Deterrean Gamble

SENT

Associated Case Party: Robert Hall
Name

TimestampSubmitted Status

BarNumber Email

CSD-legal-667@texasattomeygeneral.gov 12/1/2020 9:45:49 AM

Robert Hall

SENT

Associated Case Party: KaraElisabethCoursey
Name

TimestampSubmitted Status

BarNumber Email

Kara Coursey Jr

karajunior87@gmail.com

12/1/2020 9:45:49 AM

SENT

Kara Coursey

karajunior87@hotmail.com

12/1/2020 9:45:49 AM

SENT

Associated Case Party: MichaelTimothyQuinn
Name
Michael TimothyQuinn

BarNumber Email

TimestampSubmitted Status

michael.tim.quinn@gmail.com 12/1/2020 9:45:49 AM

SENT

74a

July 14, 2021

Michael T. Quinn

Your Social Security Statement
Your Social Security Statement tells you about how much you or your family would receive in disability,
survivor, or retirement benefits. It also includes our record of your lifetime earnings. Check out your earnings
history, and let us know right away if you find an error. This is important because we base your benefits on
our record of your lifetime earnings.
Social Security benefits are not intended to be your only source of income when you retire. On average,
Social Security will replace about 40 percent of your annual pre-retirement earnings. You will need other
savings, investments, pensions, or retirement accounts to make sure you have enough money to live
comfortably when you retire.

Social Security Administration

Follow the Social Security Administration at these social media sites.

^0 Y0U|Qjj^

75a

Your Estimated Benefits
Because You Have Already Filed a Claim for Benefits
We are not giving you estimates because our records show that you have already qualified for benefits.

If the benefits are based on your own record, you received a notice of your benefit amount when you first qualified. Each year, you
get an updated notice showing the annual cost-of-living increase. If you continue working while qualified for benefits and those earnings
increase your benefit amount, we will send you additional notices of the new amounts. And when you die, we will base benefit payments
for your survivors on your benefit amount.
If you are getting benefits as the spouse or the widow or widower of someone else, we must look at both records to determine how
much you are entitled to. Please call our toll-free telephone number on page 4 or contact your local Social Security office so that we can
discuss this with you.

How Your Benefits Are Estimated
To qualify for benefits, you earn "credits" through your work — up
to four each year. This year, for example, you earn one credit for
each $1,470 of wages or self-employment income. When you've
earned $5,880, you've earned your four credits for the year. Most
people need 40 credits, earned over their working lifetime, to
receive retirement benefits. For disability and survivors benefits,
young people need fewer credits to be eligible.
We checked your records to see whether you have earned
enough credits to qualify for benefits. If you haven't earned enough
yet to qualify for any type of benefit, we can’t give you a benefit
estimate now. If you continue to work, well give you an estimate
when you do qualify.
What we assumed — If you have enough work credits, we
estimated your benefit amounts using your average earnings over
your working lifetime. For 2021 and later (up to retirement age),
we assumed you'll continue to work and make about the same as
you did in 2019 or 2020. We also included credits we assumed you
earned last year and this year.
Generally, the older you are and the closer you are to retirement,
the more accurate the retirement estimates will be because they are
based on a longer work history with fewer uncertainties such as
earnings fluctuations and future law changes. We encourage you
to use our online Retirement Estimator to obtain immediate and
personalized benefit estimates.
We can't provide your actual benefit amount until you apply for
benefits. And that amount may differ from the estimates above
because:
(1) Your earnings may increase or decrease in the future.
(2) After you start receiving benefits, they will be adjusted for
cost-of-living increases.

(3) Your estimated benefits are based on current law. The law
governing benefit amounts may change.
(4) Your benefit amount may be affected by military service,
railroad employment or pensions earned through
work on which you did not pay Social Security tax.
Visit www.socialsecurity.gov to leam more.
Windfall Elimination Provision (WEP) — if you receive a
pension from employment in which you did not pay Social Security
taxes and you also qualify for your own Social Security retirement
or disability benefit, your Social Security benefit may be reduced,
but not eliminated, by WEP. The amount of the reduction, if any,
depends on your earnings and number of years in jobs in which you
paid Social Security taxes, and the year you are age 62 or become
disabled. To estimate WEP's effect on your Social Security benefit,
visit www.socialsecurity.govlWEP‘CHART. For workers newly
eligible in 2021, the maximum monthly reduction in P1A is $498.
For more information, please see Windfall Elimination Provision
(Publication No. 05-10045) at www.socialsecurity.gov/WEP.
Government Pension Offset (GPO) — If you receive a pension
based on federal, state or local government work in which you did
not pay Social Security taxes and you qualify, now or in the future,
for Social Security benefits as a current or former spouse, widow
or widower, you are likely to be affected by GPO. If GPO applies,
your Social Security benefit will be reduced by an amount equal to
two-thirds of your government pension, and could be reduced to
zero. Even if your benefit is reduced to zero, you will be eligible
for Medicare at age 65 on your spouse's record. To leam more,
please see Government Pension Offset (Publication No. 05-10007)
at www.socialsecurity.gov/GPO.

r rtir

i

76a

Your Earnings Record
Years You
Worked
2000

Your Taxed
Social Security
Earnings

Your Taxed
Medicare
Earnings

2009

1309
2307
133
4.716
9371
7.757
13.635
21.279
23,737
21,222

1309
2307
133
4.716
9,571
7,757
13.635
21.279
23,737
21322

2010

o

o

2011
2012
2015

0
0
0
0
0

2016

o

o

2017
2018
2019

0
0
0

0
0
0

2020

Not yet recorded

Not yet recorded

2001
2002
2003
2004
2005

2006
2007
2008

2013
2014

You and your family may be eligible for valuable
benefits:
When you die, your family may be eligible lo receive
survivors benefits.

0

o

Social Security may help you if you become disabledeven at a young age.

0
0
0

A young person who has worked and paid Social Security
taxes in as few as two years can be eligible for disability
benefits.
Social Security credits you earn move with you from job
to job throughout your career.

Total Social Security and Medicare taxes paid over your working career through the last year reported on the chart above:
Estimated taxes paid for Social Security:
You paid:
Your employers paid:

Estimated taxes paid for Medicare:
You paid:
Your employers paid:

$6,868
$6,540

$1,601
$1,525

Note: Currently, you and your employer each pay a 62 percent Social Security tax on up to $142,800 of your earnings and a 1.45
percent Medicare tax on all your earnings. If you are self-employed, you pay the combined employee and employer amount, which is a
124 percent Social Security tax on up to $142,800 of your net earnings and a 2.9 percent Medicare tax on your entire net earnings. If
you have earned income of more than $200,000 ($250,000 for married couples filing jointly), you must pay 0.9 percent more in Medicare
taxes.

Help Us Keep Your Earnings Record Accurate
You, your employer and Social Security share responsibility for
the accuracy of your earnings record. Since you began working,
we recorded your reported eamings under your name and Social
Security number. We have updated your record each time your
employer (or you, if you're self-employed) reported your eamings.
Remember, it's your eamings, not the amount of taxes you paid
or the number of credits you've earned, that determine your benefit
amount. When we figure that amount, we base it on your average
eamings over your lifetime. If our records are wrong, you may not
receive all the benefits to which you're entitled.
Review this chart carefully using your own records to make sure
our information is correct and that we've recorded each year you
worked. You're the only person who can look at the eamings chart
and know whether it is complete and correct.
Some or all of your eamings from last year may not be shown
on your Statement. It could be that we still were processing last

year's earnings reports when your Statement was prepared. Note: If
you worked for more than one employer during any year, or if you
had both eamings and self-employment income, we combined your
eamings for the year.
There's a limit on the amount of earnings on which you pay
Social Security taxes each year. The limit increases yearly.
Earnings above the limit will not appear on your earnings chart
as Social Security earnings. (For Medicare taxes, the maximum
eamings amount began rising in 1991. Since 1994, all of your
eamings are taxed for Medicare.)
Call us right away at 1-800-772-1213 (7 a.m.-7 p.m. your local
time, TTY 1-800-325-0778) if any eamings for years before last
year are shown incorrectly. Please have your W-2 or tax return
for those years available. (If you live outside the U.S., follow the
directions at the bottom of page 4.)

't

7

77 a

Some Facts About Social Security
About Social Security and Medicare...
Social Security pays retirement, disability, family and
survivors benefits. Medicare, a separate program run by the
Centers for Medicare & Medicaid Services, helps pay for
inpatient hospital care, nursing care, doctors' fees, drugs,
and other medical services and supplies to people age 65
and older, as well as to people who have been receiving
Social Security disability benefits for two years or more.
Your Social Security covered earnings qualify you for both
programs. Medicare does not pay for long-term care, so you
may want to consider options for private insurance. For more
information about Medicare, visit www.medicare.gov or
call 1-800-633-4227 (TTY 1-877-486-2048 if you are deaf
or hard of hearing).

Extra Help with Medicare — If you know someone who
is on Medicare and has limited income and resources, extra
help is available for prescription drug costs. The extra help
can help pay the monthly premiums, annual deductibles
and prescription co-payments. To learn more or to apply,
visit www.socialsecurity.gov or call 1-800-772-1213
(TTY 1-800-325-0778).
Receive benefits and still work...
You can work and still get retirement or survivors benefits. If
you're younger than your full retirement age, there are limits
on how much you can earn without affecting your benefit
amount. When you apply for benefits, we'll tell you what
the limits are and whether work would affect your monthly
benefits. When you reach full retirement age, the earnings
limits no longer apply.
Before you decide to retire...

Retirement — If you were bom before 1938, your full
retirement age is 65. Because of a 1983 change in the law.
the full retirement age will increase gradually to 67 for
people bom in 1960 and later.
Some people retire before their full retirement age. You
can retire as early as 62 and take benefits at a reduced rate.
If you work after your full retirement age, you can receive
higher benefits because of additional earnings and credits for
delayed retirement.

Carefully consider the advantages and disadvantages of
early retirement. If you choose to receive benefits before
you reach full retirement age, your monthly benefits will be
reduced.
To help you decide the best time to retire, we offer a
free publication, When To Start Receiving Retirement
Benefits (Publication No. 05-10147), that identifies the
many factors you should consider before applying. Most
people can receive an estimate of their benefit based on
their actual Social Security earnings record by using our
online Retirement Estimator. You also can calculate future
retirement benefits by using the Social Security Benefit
Calculators at www.socialsecurity.gov.
Other helpful free publications include:
— Retirement Benefits (No. 05-10035)
— Understanding The Benefits (No. 05-10024)
— Your Retirement Benefit: How It Is Figured (No.
05-10070)
— Windfall Elimination Provision (No. 05-10045)
— Government Pension Offset (No. 05-10007)
— Identity Theft And Your Social Security Number (No.
05-10064)
We also have other leaflets and fact sheets with
information about specific topics such as military
service, self-employment or foreign employment.
You can request Social Security publications at our
website, www.socialsecurity.gov, or by calling us
at 1-800-772-1213. Our website has a list of frequently asked
questions that may answer questions you have. We have
easy-to-use online applications for benefits that can save you
a telephone call or a trip to a field office.
You also may qualify for government benefits outside
of Social Security. For more information on these benefits,
visit www.benefits.gov.

Disability —■ If you become disabled before full retirement
age, you can receive disability benefits after six months if
you have:
— enough credits from earnings (depending on your age,
you must have earned six to 20 of your credits in the three
to 10 years before you became disabled); and
— a physical or mental impairment that's expected to
prevent you from doing ''substantial'1 work for a year or
more or result in death.
If you are filing for disability benefits, please let us know
if you are on active military duty or are a recently discharged
veteran, so that we can handle your claim more quickly.
Family — If you're eligible for disability or retirement
benefits, your current or divorced spouse, minor children
or adult children disabled before age 22 also may receive
benefits. Each may qualify for up to about 50 percent of your
benefit amount.
Survivors — When you die, certain members of your family
may be eligible for benefits:
— your spouse age 60 or older (50 or older if disabled, or
any age if caring for your children younger than age 16);
and
—■ your children if unmarried and younger than age 18, still
in school and younger than 19 years old, or adult children
disabled before age 22.
If you are divorced, your ex-spouse could be eligible for a
widow’s or widower’s benefit on your record when you die.

If you need more information — Contact any Social Security office, or call us toll-free at 1-800-772-1213. (If
you are deaf or hard of hearing, you may call our TTY number, 1-800-325-0778.) If you have questions about your
personal information, you must provide your complete Social Security Number. If you are in the United States, you
also may write to the Social Security Administration, Office of Earnings Operations, P.O. Box 33026, Baltimore, MD
21290-3026. If you are outside the United States, please write to the Office of International Operations, P.O. Box
17769, Baltimore, MD 21235-7769, USA.
c- ccA.irwc _nt /mnn

d

